<html>
<title> - REVISITING THE RESTORE ACT: PROGRESS AND CHALLENGES IN GULF RESTORATION POST-DEEPWATER HORIZON</title>
<body><pre>[Senate Hearing 113-675]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-675
 
                      REVISITING THE RESTORE ACT:
   PROGRESS AND CHALLENGES IN GULF RESTORATION POST-DEEPWATER HORIZON

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and  Transportation
                             
                             
                             
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                             
                             
                             
                             
                             
                             
                             
                             



                             U.S. GOVERNMENT PUBLISHING OFFICE
  95-549 PDF                          WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001








       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
       
       

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
EDWARD MARKEY, Massachusetts         TIM SCOTT, South Carolina
CORY BOOKER, New Jersey              TED CRUZ, Texas







                               (II)









                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2014....................................     1
Statement of Senator Nelson......................................     1
    Prepared statement...........................................     7
Statement of Senator Boxer.......................................     7
Statement of Senator Rubio.......................................    10
Statement of Senator Wicker......................................    12
    Prepared statement of introduction for Trudy Fisher..........    13

                               Witnesses

Hon. Mary Landrieu, U.S. Senator from Louisiana..................     2
Hon. David Vitter, U.S. Senator from Louisiana...................     5
Hon. Bruce H. Andrews, Deputy Secretary of Commerce, U.S. 
  Department of Commerce.........................................    14
    Prepared statement...........................................    15
Justin R. Ehrenwerth, Executive Director, Gulf Coast Ecosystem 
  Restoration Council............................................    22
    Prepared statement...........................................    24
Trudy D. Fisher, Executive Director, Mississippi Department of 
  Environmental Quality..........................................    29
    Prepared statement...........................................    32
Mimi A. Drew, Former Secretary, Florida Department of 
  Environmental Protection; and Florida Governor Rick Scott's 
  Designee to the Gulf Coast Ecosystem Restoration Council.......    34
    Prepared statement...........................................    36
Hon. Grover C. Robinson IV, Commissioner, District 4, Escambia 
  County; President, Florida Association of Counties; and 
  Chairman, Florida Gulf Coast Consortium........................    40
    Prepared statement...........................................    43
Thomas E. Kelsch, Senior Vice President, Gulf Environmental 
  Benefit Fund, National Fish and Wildlife Foundation............    45
    Prepared statement...........................................    46

                                Appendix

Letter dated August 11, 2014 to Hon. Mark Begich, Hon. Marco 
  Rubio and Hon. Bill Nelson from Robert B. Gagosian, President 
  and CEO, Consortium for Ocean Leadership and William Monty 
  Graham, Board Chairperson, Gulf of Mexico University Research 
  Collaborative..................................................    55
Response to written questions submitted to Hon. Bruce H. Andrews 
  by:
    Hon. Roger F. Wicker.........................................    56
    Hon. Marco Rubio.............................................    57
Response to written questions submitted to Justin R. Ehrenwerth 
  by:
    Hon. Bill Nelson.............................................    57
    Hon. Roger F. Wicker.........................................    57
    Hon. Marco Rubio.............................................    58
Response to written questions submitted by Hon. Marco Rubio to:
    Mimi A. Drew.................................................    59
    Thomas E. Kelsch.............................................    60
    
    
    
    
    
    
    
    
                              (II)
                              
    
    
      


                      REVISITING THE RESTORE ACT:



                    PROGRESS AND CHALLENGES IN GULF



                   RESTORATION POST-DEEPWATER HORIZON

                              ----------                              


                         TUESDAY, JULY 29, 2014

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning, everybody.
    It is hard to believe that it has been 4 years since a 
disaster of major proportions.
    And the visitation that has occurred prior to the starting 
of this hearing--most everybody knows everybody, all those that 
are participating today in the audience. And I want to thank 
you for what you have done over the years in being concerned. I 
want to thank all of the agencies at all levels of government.
    Senator Rubio, I am holding my opening statement in 
abeyance as a courtesy, if it is OK with you, to our guests. 
Senator Landrieu and Senator Vitter have asked to speak to the 
Committee today, and of course, they are one of the states that 
was most impacted by the spill and now the long-term effects 
that we are seeing on a daily basis.
    I remember I went to visit with two professors at Louisiana 
State University who had done--this is about a year after the 
spill--research with a little fish that lives in the bays and 
bayous that roots around in the sediment. It is called a 
killifish. And even after only a year, they were seeing 
dramatic changes in the killifish and their offspring as a 
result of bays where there was a lot of oil and then the 
contrary, in the bays that did not have much oil.
    And of course, most of those bays are in the state of 
Louisiana where most of the oil went, although the oil went as 
far east as some of the tar balls coming up on Panama City 
Beach in our state, a good bit of oil that went up on Pensacola 
Beach. And they are still finding oil today that is buried way 
down deep in the sand on Pensacola Beach. So it has affected a 
lot of states.
    And of course, you all know the tremendous economic 
devastation that occurred because in a state like Senator 
Rubio's and mine, that has such a tremendous part of its 
economy having to do with tourism, the tourists did not come 
because they thought there was oil on the beach when in fact 
there was not. And not just in northwest Florida on the sugary 
white beaches, but the tourists did not come all the way down 
the peninsula of Florida simply because of what they feared.
    So we want to welcome everybody here on a most timely 
hearing, and I want to recognize first the senior Senator from 
Louisiana, Senator Landrieu, who if I can say--and I will take 
the personal privilege to say--was the spark plug. I mean, she 
did not let up back a few years ago when we passed the RESTORE 
Act. Senator Landrieu?

               STATEMENT OF HON. MARY LANDRIEU, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Thank you so much, Senator Nelson and 
Senator Rubio, for conducting this really important oversight 
meeting--and Senator Boxer as well--on the RESTORE Act, a very 
significant piece of legislation that was passed 2 years ago 
and needs to be more fully implemented.
    But let me begin by saying that the state that Senator 
Vitter and I represent has been struggling for decades for 
justice and fairness for our coast. It has been my number one 
issue since being elected to the Senate to advocate on behalf 
of coastal restoration because without it, our state has a 
very, very limited and dim economic future.
    The coast of Louisiana is the largest section of land in 
America that is being eroded. It has the greatest pressures of 
any coastal area in the country. We lose--I have lost thousands 
of miles literally of land in the last 50 years. It is the 
state's and should be our state's number one priority. It is 
both an environmental priority and an economic priority, and it 
is absolutely essential that we are successful.
    So several years ago, I led the effort to secure the only 
known or identifiable source of revenue that could come back to 
the state to help us restore our coast, which is part of the $9 
billion a year that the state generates for the Federal 
Treasury from oil and gas resources off of our shore. As you 
know, we are one of four states that produce offshore oil and 
gas. We have generated over $216 billion for the Federal 
Treasury. If Louisiana and the producing Gulf Coast States 
could get a portion of that revenue, we could begin to address 
our own coastal restoration challenges, which are our 
challenges, but this is really America's energy coast. It is 
America's wetlands. It is not just Louisiana, as we contribute 
hugely to the economic strength of this entire Nation, which is 
why we believe it should be a shared responsibility and 
partnership.
    So I led that effort successfully. We are now receiving 
some revenue to come in. But when this accident happened 4 
years ago and 11 men lost their lives and a huge platform in 
the Gulf, the Macondo platform, blew up with BP and other 
operators, I knew that there would be a large penalty to be 
paid. And of course, it was Senator Boxer's legislation, the 
Clean Water Act, that assesses a strong penalty for violators 
that pollute our rivers, our streams, and our oceans.
    Well, this was one of the largest, most egregious pollution 
events in the history of our country when over 5 million 
barrels of oil spilled into the Gulf. Now, we have drilled 
40,000 wells in the Gulf, Mr. Chairman, over a long period of 
time, and happily and thankfully most of those have gone 
without incident. We have very strong environmental rules and 
regulations. But there were many defective processes that went 
on. The blowout preventer failed and 5 million gallons of oil 
spilled, of course, along your shore, which does not do 
production, but you have risk, Mississippi, Texas, Louisiana. 
We believe the bulk of the damage, of course, environmentally 
was done to the Louisiana coast, but there was damage done 
throughout the coast and significant economic damage to our 
state and to yours as well.
    So that is why I led the effort to--and with Senator 
Vitter's good support and help, we built a broad coalition, 
including yourself, of stakeholders, both the stakeholders here 
in Washington, Congress, and at the State level and community 
and civic leaders to pass the RESTORE Act. As you know, it 
became law 2 years ago. Democrats, Republican leaders here in 
Congress and across the country came together to support it. 
The RESTORE Act was meant to implement quickly for the Gulf 
Coast to jump start restoration efforts. While we depend on 
revenue sharing as a long-term permanent fix, this could have 
jump started our efforts. And the penalty, once it is 
determined by the court, is going to be somewhere between $5 
billion and $20 billion. I felt like it was the most fair thing 
to direct 80 percent of that penalty back to the Gulf where the 
accident happened, which is what the RESTORE Act did and 
passed.
    But it has been more than 2 years since we came together to 
pass that Act, and both the Department of Commerce, as Chair of 
the Council, and Department of the Treasury have failed in my 
view to implement the law the way it was supposed to. These 
deadlines have come and gone. The Treasury deadline has been 
passed. The Commerce deadline has been passed. And as I said, 
since the first deadline passed, Louisiana has lost an 
additional 35 square miles of wetlands, roughly the size of 
Fort Lauderdale, Florida, with which you and Senator Rubio are 
very, very familiar. These deadlines were not arbitrary. They 
were meant to be adhered to. The Gulf Coast Restoration Trust 
Fund contains more than $600 million. It is not the full 
amount, which the courts will ultimately decide, but an early 
deposit was made of $600 million. That money needs to be 
distributed.
    During the last announcement on August 28, Secretary 
Pritzker set a goal to have the ecosystem projects selected 
within 12 months. August 28, 2014 is fast approaching. Yet, the 
Department of Commerce is off track to achieve that goal. I 
urge Deputy Secretary Andrews to explain in great detail what 
has changed, why these deadlines are being missed. Between all 
the previous reports and plans and the public process 
associated with them, this should not have been difficult.
    And I want to present to this committee for the record--
this is Louisiana's plan. We have had a coastal restoration 
plan for over 30 years, not 30 months, 30 years. This plan is 
ready to go. It is vetted by environmentalists, by business 
leaders, by our recreational and commercial fishermen. This 
plan has been signed off on not by one Governor but by six. 
Republicans, Democrats, Members of Congress stand behind, 
unified this plan. Louisiana is ready to go. We do not want to 
delay or wait any longer. If other states do not have their 
plans together along the Gulf Coast, well, they may have to 
miss the deadline, but Louisiana does not.
    So I urge the Department of Commerce to read our plan and 
to start funding some of these important projects that were 
anticipated as we passed the RESTORE Act.
    I know I have gone over my time, but let me just have 1 
minute to close.
    Moving forward, we must also be sure that the ecosystem 
projects ultimately selected are steps toward the 
comprehensive, large-scale restoration without regard to 
geographic state boundaries. That was what was intended by 
Congress particularly for Pot 2. It is particularly important 
that the Council adhere to the statutory ecosystem restoration 
priorities and not add criteria to this. These responsibilities 
fall on the Department of Commerce. They will be testifying 
next, and your committee will oversee their work.
    In closing, the Department of Commerce and the Department 
of the Treasury must make RESTORE a priority. They must stop 
failing to meet their deadlines. I am prepared to work with 
them in any way that I can. Implementation delays should not 
have happened, and they cannot continue. Once the 
administration gives the green light to restoring our working 
coast, the promise of the RESTORE Act will be realized, the 
promise of billions of dollars to Louisiana and our sister 
states who share much of the risk--we acknowledge that. We want 
them to be made as whole as possible.
    But Louisiana's plan is ready to go. There is no doubt that 
the Gulf Coast will have a brighter future because of the 
RESTORE Act, and with revenue sharing coming online starting 
this year and accelerating and increasing over time, we finally 
now have the money to fund a plan. We have the will. We have 
the plan. We need the partnership from the Federal Government 
to fund our projects, to save our coast, to secure our coast 
for its future and the economic future of the United States.
    Thank you.
    Senator Nelson. Thank you, and without objection, your plan 
will be entered in the Committee's record.
    [The information referred to follows:]

    Coastal Protection and Restoration Authority of Louisiana. 2012. 
Louisiana's Comprehensive Master Plan for a Sustainable Coast. 
Published by the Coastal Protection and Restoration Authority of 
Louisiana, 450 Laurel Street, Baton Rouge, LA 70801 to ``promulgate the 
comprehensive master plan, to report to the Louisiana Legislature and 
inform Louisiana Citizens under authority of R.S. 49:214.5.3.'' 190 
pages.
    Here is a link to the plan: http://issuu.com/coastalmasterplan/
docs/coastal_
master_plan-v2?e=3722998/2447530
    Check www.coastalmasterplan.la.gov for updates. Contact the Coastal 
Protection & Restoration Authority at P.O. Box 44027, Baton Rouge, LA 
70804; or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="521f3321263720023e333c123e337c353d247c">[email&#160;protected]</a>

    Senator Nelson. Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Senators and colleagues, very 
much for this hearing, even more importantly for all of your 
leadership when we passed the RESTORE Act because the three of 
you were extremely supportive and involved.
    And of course, it was a big win. The Deepwater Horizon 
disaster was the biggest environmental disaster in our Nation's 
history, a huge impact to the Gulf Coast in particular. So the 
RESTORE Act was a big win, dedicating 80 percent of the Clean 
Water Act's civil penalties paid by the responsible parties to 
restoration and rebuilding.
    Understanding the critical need for that--of course, I was 
an original cosponsor and worked diligently to get the RESTORE 
Act passed through our Senate Environment and Public Works 
Committee. I thank the Chairman for her leadership. We passed 
it there unanimously in November 2011--unanimous and passionate 
support. And then we passed it through the Senate in March of 
2012.
    Then as a leading Republican conferee on the highway bill, 
I continued to make the enactment, the full, final passage and 
enactment of the RESTORE Act an absolutely top priority by 
insisting that it be included in the final version of that 
highway bill.
    As you know, no one felt the effects of the Deepwater 
Horizon disaster more than the citizens of Louisiana. Our 
coastline experienced over 671 miles of oiled shoreline. That 
is one and a half times the miles of oiling than experienced by 
all other states combined, and besides having that over 60 
percent of shoreline oiled, Louisiana also had about 90 percent 
of the total oiled marsh and that happens to be the most 
sensitive habitat to oiling. So that is a significant impact.
    As a result of the spill, our economy, of course, took a 
huge hit as well. Our seafood and recreational industries in 
particular were devastated. Fortunately the RESTORE Act will 
provide the critical funds needed to help ease that real 
damage.
    Given the importance of the RESTORE Act, I have kept a very 
close watch since its passage on the manner of implementation 
and have expressed several concerns along the way, which I will 
also do today.
    I have requested multiple briefings with Treasury regarding 
pending regulations, as well as a meeting with the Secretary of 
Commerce, Penny Pritzker, to discuss my particular concerns 
regarding the Council's process in determining how funds will 
be distributed under certain provisions.
    We have made progress, but I also want to express some of 
those concerns today, four in particular.
    Number one, the allocation of funds under Bucket 2 of the 
RESTORE Act. I understand the Council has just announced the 
process for evaluating and submitting restoration projects 
under this component and that the Council members may begin 
submitting projects as early as next month with project 
evaluation and selection activities taking place later this 
fall. Given that these projects will be funded with available 
funds from the Transocean settlement and we do not yet know how 
much in civil penalties BP will be required to pay, I want to 
stress the importance of refraining from nickel and diming 
these funds. We want to move quickly. We want to start. 
Everybody agrees with that. But we do not want that to turn 
into ultra-small projects because of limited resources now. The 
funding priority list to be developed by the Council should 
primarily contain projects that contribute to the large-scale, 
comprehensive Gulf restoration envisioned under Bucket 2.
    Point number two. I want to emphasize that the four 
priority criteria for Bucket 2 listed in the actual statutory 
language should take precedence over the objectives contained 
in the comprehensive plan developed by the Council. The Council 
should also give priority to projects that address multiple 
criteria as opposed to only one.
    Point number three. And this also has to do with Bucket 2. 
Under the plain language of the RESTORE Act regarding Bucket 2, 
funds distributed under Bucket 2, should only be used for 
projects that would restore and protect the environment. In 
Treasury's proposed rule, however, Treasury has unilaterally 
decided to include economic projects as eligible under Bucket 
2, and that is contrary to the clear statutory language. I 
would urge you all to just literally look at the statutory 
language here and the proposed regs. They do not line up. And 
that is serious. So in order to avoid unnecessary litigation 
that would delay the distribution of much needed funds, 
Treasury should resolve this issue before issuing the final 
regs.
    Point number four. And this has to do with Bucket 3. Bucket 
3 will be divided among the states according to a formula to be 
established by the Council by regulation based on the weighted 
average of three criteria. And they are developing that 
formula. In continuing with this process, I want to encourage 
the Council to ensure that all of the Council members are fully 
engaged in the process and that they give input and also that 
the Chair should vote independently and in line with the intent 
and language of the statute, not just for whatever the majority 
of the states may work out on their own. I think that is very 
important.
    So those are the four main continuing concerns I wanted to 
express.
    Of course, Louisiana has a very strong interest in making 
sure that the implementation process is conducted in a fair and 
transparent model. I know we all support that.
    Despite my pending concerns, I would like to commend all 
those involved for their hard work and dedication to ensuring 
the successful implementation of all parts of the RESTORE Act.
    Thank you.
    Senator Nelson. Thank you, Senator Vitter.
    We understand that in the Treasury's first draft, indeed, 
that language is there. It is this Senator's understanding that 
they are taking that out, and pursuant to the clear legislative 
intent, that seems to be a step in the right direction.
    Now, in the interest of time, I am going to forego an 
opening statement and will enter it into the record.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    It is hard to believe that it has been four years since the worst 
man-made environmental disaster in our Nation's history--the explosion 
of the Deepwater Horizon oil platform, which resulted in the death of 
11 men and over 4.9 million barrels of oil spilled in the Gulf of 
Mexico.
    One of the highlights of a gridlocked Congress was the RESTORE Act 
in 2012. Without the Senator from Louisiana and California in 
particular, we might not have gotten across the finish line.
    The law directs the bulk, 80 percent, of any Clean Water Act civil 
penalties paid as a result of the 2010 oil spill back to the Gulf Coast 
States.
    Last year, both BP and Transocean settled their criminal cases for 
violations of the Clean Water Act with the U.S. Department of Justice. 
As a result, over two and half billion dollars will go toward Gulf 
restoration projects through the National Fish and Wildlife Foundation, 
who is represented at the hearing today.
    While we wait for a resolution of the remaining clean water act 
fines, it's important that our Federal agencies, states, and counties 
are getting prepared if and when there is a resolution to the ongoing 
litigation in New Orleans.
    My top priorities for restoring the gulf are to ensure that we have 
sufficient science guiding ecosystem restoration and that restoration 
projects are funded on a much timelier basis than in the last 4 years. 
Simply put, the Gulf can't wait.
    To me, a restored gulf is one in which clean water is free from 
harmful algae blooms and free from tar mats, is home to healthy oyster 
reefs and fish habitat and sea grass beds, where charters ferry 
tourists from hotels to pristine beaches and then on out to the best 
fishing spots around.
    In order to get there, some more things need to start happening.
    With regard to RESTORE Act implementation, I am pleased the Council 
announced on Friday a path forward for funding ecosystem restoration 
projects from the available funds from the Transocean settlement.
    However, there is much work to be done to get to a funded project 
list. I'm interested in learning how the Commerce Department, the 
Council members, and other stakeholders view a restored gulf and how 
you are working together to ensure this process runs more efficiently.
    Since last year's hearing, I know that that National Fish and 
Wildlife Foundation has obligated over $260 million to ecosystem 
restoration in the Gulf--including funding fisheries assessments in 
Florida, which is welcome news to our fisherman.
    One of the lessons we learned--and we learned it too late--is that 
we do not have sufficient understanding of the gulf ecosystem. Even 
now, we do not have a clear picture on the biological status of two-
thirds of the federally managed fish stocks that call the gulf home, so 
it is important that some of these fines go toward dedicated, long-term 
science about the gulf ecosystem, which is what we envisioned for the 
NOAA Science Program.
    I'd like to thank today's witnesses and others who have been 
working to design plans and projects that will lead to a healthy and 
restored Gulf of Mexico. I greatly appreciate the amount of time and 
energy you have spent trying to get it right.
    Thank you again to our witnesses and especially to Senator 
Landrieu, who deserves the highest praises for her work to get this 
legislation passed. I look forward to hearing your testimony.

    Senator Nelson. Senator Boxer, with Senator Rubio's 
concurrence, is here and has to go to another meeting. I want 
to recognize her as a member of this committee and again as one 
of the leaders in helping see that the RESTORE Act was enacted 
into law. Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Well, Mr. Chairman, thank you so very much. 
Thanks to my colleagues. Senator Rubio, thank you as well.
    I am really directing my remarks to the Honorable Bruce 
Andrews and Mr. Justin Ehrenwerth, who are the Federal folks 
who are going to be making sure that the implementation of our 
RESTORE Act is followed and the intent is followed and there is 
no freelancing about what we meant. We knew what we meant. We 
worked really hard on this. So where is Justin? Hi, Justin. I 
see Bruce there. So this is to you in friendship.
    Just over 3 years ago, as Chairman of the Environment and 
Public Works, I stood with most members of the Gulf Coast 
Senate delegation to announce a far-reaching bipartisan 
agreement that would dedicate 80 percent of the Clean Water 
Act's civil penalties collected in relation to the BP spill to 
activities to restore the Gulf Coast ecosystem and economy. And 
I say that very clearly. Two points: restore the ecosystem, 
restore the economy. Not one, but two.
    I want to thank Senators Landrieu and Vitter and Nelson and 
Shelby and others who worked so hard with us to develop a 
compromise proposal. As a Senator from California, this was not 
affecting my state, but I know when something happens like that 
what it does to you. It just takes you back. And we have gone 
through earthquakes, floods, fires, and droughts. We continue 
to go through those things. And my colleagues always step up to 
the plate.
    So my approach was let us get these funds where they 
deserve to go. Eighty percent back. And I am very pleased that 
the RESTORE Act was ultimately incorporated into the conference 
agreement on the transportation bill, as Senator Vitter 
reminded us, known as MAP-21. That whole transportation bill is 
coming back this afternoon, but I will not get into that.
    Over 4 years after the BP oil spill, the impacts on the 
fish and wildlife of the Gulf region are still being felt. 
Things are getting better, for sure. And I just got back from 
New Orleans. I was so excited to see the amazing amount of 
vitality in New Orleans.
    Recent research has shown that dolphins near the spill are 
suffering. Scientists have also found an abnormal number of 
fish with problems. So we need significant research on the 
long-term consequences of the spill.
    The RESTORE Act was designed to help ensure that the Gulf's 
damaged ecosystem and the thousands of jobs that depend on them 
are once again thriving and strong. And we know that small 
businesses and their employees have been hit hard in all these 
states. And, my colleagues, I know how hard you have all worked 
to bring this back, and that is what the RESTORE Act is about, 
restoring the ecosystems, restoring the economy.
    The Gulf of Mexico and its abundant natural resources are a 
great economic asset. We just relearned that the ocean-related 
economy, which is something that Senator Nelson always reminds 
me, is generating $21 billion in economic activity and supports 
over 400,000 jobs. That is the Gulf Coast economy. So the 
RESTORE Act is absolutely critical.
    And I do have concerns that I want to address to my 
colleagues. A legal settlement was reached with Transocean in 
February 2013. As a result, there is money sitting in the Gulf 
Coast restoration trust fund waiting to be spent. The needs on 
the ground are too great for us to wait any longer. The funding 
has to go where it is needed most in accordance with our law.
    The RESTORE Act set many important milestones, including a 
one-year deadline for release of an initial comprehensive plan 
to restore and protect the natural resources, the ecosystems, 
the fisheries, marine and wildlife habitat, beaches, coastal 
wetlands. This plan will guide the Federal, State, and local 
efforts to restore the damaged Gulf of Mexico environment.
    I am very pleased that the RESTORE Council, Justin, 
released an initial comprehensive plan that provides a 
framework. It is very important. But I am concerned that the 
project-by-project list required by the legislation has not yet 
been released despite being more than a year overdue. Folks in 
the Gulf Coast region--they need help now. The committee today 
is going to hear from our friends that I just mentioned. And I 
have to be at another incredibly important hearing on Iran, so 
I will not be here, but I am here in spirit. And with my 
colleagues, I will hear what you say.
    As the administration works to implement the RESTORE Act, 
it must strive to faithfully implement the legislation passed 
by Congress, including--and this is important--the delicate 
balance between restoration of the Gulf Coast ecosystems and 
the economy. Now, gentlemen, these two are related. The 
beautiful environment in the Gulf Coast and the vibrant economy 
go hand in hand. I come from a coastal State. Something happens 
to our coast, our economy crashes. People come there for the 
beauty.
    So I am so proud of our accomplishment in passing the 
RESTORE Act. It is over 2 years ago. However, much more needs 
to be done. And I am so glad that Senators Landrieu and Vitter 
and Wicker and Rubio and Nelson and I are going to make sure 
that this really happens. We remain committed to addressing the 
devastating impacts of the BP oil spill. We need to get a step 
ahead. We do not know how much is going to come in on this, but 
it is going to be substantial. If we cannot get our act 
together now and we have funds sitting in there now, it does 
not bode well for our moving forward quickly.
    So for me to you, I stand ready to help. If there is 
anything I can do, please call on me. If you have any problems 
with what was the intent of the law, we know because we wrote 
it. So just do not go off on something that you think is in 
there. Talk to us. And again, we will ride herd and we will be 
with you as you roll this all out.
    Mr. Chairman, thank you so much for this hearing.
    Senator Nelson. Thank you, Senator Boxer.
    Senator Rubio?
    Senator Landrieu. Mr. Chairman, could I just underscore 1 
minute before Senator Rubio?
    Senator Nelson. Of course.
    Senator Landrieu. Thank you so much.
    Senator Nelson. And if the two of you need to leave, go 
ahead.
    Senator Landrieu. Yes. I think we are going to leave this 
in good hands.
    But I want to thank Senator Boxer for her extraordinary 
leadership. This would not have happened without her. It went 
through the EPW Committee, and without her leadership, the 
RESTORE Act would not have happened.
    And of course, this committee is now going to play a vital 
role in the implementation.
    I want to underscore what Senator Vitter said and Senator 
Boxer, the law is clear. We debated the issue of pot 2. That 
money was expressly and solely directed to ecosystem 
restoration. Period. Pot 1 and Pot 3 were negotiated by 
Senators for both, for ecosystem and economic, because our 
states suffered differently, and that was a negotiation. It is 
written in the law as plain as day. So let us follow the law. 
Let us meet our deadlines. Let us get this work done.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Nelson. I hope the Treasury Department listens to 
this testimony.
    Senator Rubio?

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Senator Nelson, for holding this 
hearing.
    And I want to thank the Senators from Louisiana as they go 
about their work today. Thank you for being here today and 
being a part of this and all the work that went into getting us 
to this point.
    At the outset, I wanted to say there is another hearing 
going on in Foreign Relations where the key negotiators for the 
U.S. with Iran are the witnesses. So at some point in the 
hearing, when it would be my turn, I am going to run and do 
those questions and then come back over.
    But I wanted to thank you, Senator Nelson, for holding this 
hearing as well.
    And I wanted to thank Grover Robinson and Mimi Drew for 
being here today. Grover actually interrupted his family 
vacation to be here. And to both Mimi and Grover, your 
dedication to restoration of Florida's economy and the 
ecosystem has not gone unnoticed, and we thank you for all that 
you do.
    I also, like I said, wanted to thank my Gulf colleagues 
from Louisiana and Mississippi and everywhere else for the work 
we have done together. Bipartisan support is ultimately what 
got the Act enacted in the first place, and that is what it is 
going to take to have proper oversight over its implementation. 
And today we are holding a very timely hearing on the progress 
and the challenges of implementing the RESTORE Act.
    I have significant concerns about the progress being made 
to date, particularly at the Federal level. I am optimistic 
that once a final settlement is reached under the Clean Water 
Act, our state and local partners will be ready to move forward 
with the several projects that they have waiting in the wings.
    And by the way, I am pleased to see a representative of the 
National Fish and Wildlife Foundation who is here today. The 
Foundation has already been working on funding projects through 
the Gulf Environmental Benefit Fund, administering 
approximately $12.5 billion in funds to projects all across the 
region. It will be good to hear of lessons learned in 
administering these separate funds in hopes of perfecting the 
process overall as we move forward.
    However, as I mentioned and you have already mentioned, one 
of my biggest concerns is the slow pace of the administration 
in meeting--or should I say not meeting--the deadlines that are 
prescribed under the law. For example, even settlement money 
received to date cannot be expended without a final rule from 
the Treasury Department. Under the RESTORE Act, the Department 
was directed to establish procedures to expend any money 
received within 180 days. So that would have been around 
December 2012. However, to date, we still have not received a 
final rule from the Department.
    And as we will hear today from Grover and from Mimi, this 
delay has had some real on-the-ground implication for 
stakeholders. In Florida, our counties are impeded from even 
moving in the planning process as they do not have the 
administrative funds necessary to undertake such a massive 
project. The restoration process has many moving parts, several 
different funds, and several different administrators of those 
funds. Proper planning is going to be key in making sure 
spending is not duplicative and that the money is spent in the 
most responsible way possible.
    Unfortunately, this delay by Treasury has already impeded 
the success of restoration. And while I appreciate the Gulf 
Coast Ecosystem Restoration Council's announcement on Friday of 
last week on their, quote, progress that they have made in 
finalizing the approval process for projects submitted to them, 
I find their announcement lacking in the detail necessary to 
truly provide a clear and straightforward process for 
interested parties.
    Last, I have two important clarifications to make regarding 
the interpretation of the RESTORE Act.
    First of all, as we negotiated the Act here in the Senate, 
we worked very hard to put forward in the law exactly how we 
intended for the money to be spent, both in what projects would 
be eligible and by formula how much each state should receive. 
I would like to reiterate to the Council and to the 
stakeholders here today that both myself--and I think I speak 
for Senator Nelson--fully expect that the Council will adhere 
to the letter of the law as it was intended. It would be 
inappropriate of the Council to reinterpret, for example, the 
oil spill impact allocation formula that divides a portion of 
the settlement funds between the states.
    Additionally, there is one issue in Florida related to both 
the economy and the ecology and that is the issue of water 
quality. Just this weekend, just today we read reports about 
the lasting impact of the dispersants that were used. Trace 
elements are still found in tar balls, and we were told that 
those things would disperse when they came in contact with 
water. But 4 years later, they are still interacting with its 
impact, and it is not fully understood the lasting impact that 
that would have on our ecology. And you can just imagine these 
are not the kinds of things that you brag about in your Chamber 
of Commerce pamphlets as tourists are interacting with these 
tar balls and there is real concern about its implications.
    And already we keep hearing that, well, the long-term 
impacts of the dispersants are not complicated or we do not 
think they are very dangerous. But already some of the claims 
that were made initially before their use have proven not to be 
true, and there simply is not enough research or data to tell 
people this with a level of certainty that we hear from the 
industry and that tragically sometimes government has echoed. 
So I think we would all like to better understand from everyone 
here today how they value water quality, particularly as it 
relates to habitat restoration off the coast of Florida.
    Again, I want to thank everyone that is here today coming 
to this hearing, and I appreciate you holding this hearing, 
Senator Nelson. And I look forward to returning in a few 
moments after my line of questioning in Foreign Relations is 
up.
    Senator Nelson. Thank you, Senator Rubio.
    I want to invite the witnesses up.
    Senator Wicker, any comments from you before we get into 
the testimony?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Yes, I have comments. I want to subscribe 
to much of what you, Mr. Chairman, have said, as well as 
Senator Boxer, Senator Rubio, and Senator Landrieu.
    I want to take my 2 minutes of opening statement to pay 
special tribute to Dr. Trudy Fisher, who will testify, and 
perhaps that will shorten the introduction that you have to 
make for her.
    Dr. Fisher served as Executive Director of the Mississippi 
Department of Environmental Quality for the past 8 years, and 
she will soon be leaving that position. She was first appointed 
by Governor Haley Barbour, reappointed by Governor Phil Bryant. 
She was the first woman to serve as the department's director 
and has been instrumental in the aftermath of the BP oil spill.
    Dr. Fisher serves as Mississippi's trustee under the Oil 
Pollution Act and has served as Chair of the National Resources 
Damage Assessment Deepwater Horizon Trustee Council.
    In addition, Director Fisher serves as Governor Bryant's 
designee on the RESTORE Council where she oversees and helps 
implement programs to restore the Gulf Coast.
    Before serving as Executive Director, Dr. Fisher led an 
environmental law practice, served on the Mississippi 
Department of Environmental Quality as General Counsel for the 
Department of Environmental Quality.
    She received her bachelors degree from MUW and her law 
degree from the University of Mississippi School of Law where 
she was Editor-in-Chief of the Mississippi Law Journal. She has 
repeatedly been recognized by her peers as one of the best 
lawyers in America and recently received a rating of AV 
Preeminent, which is the highest possible legal rating in both 
ability and ethical standards.
    So I am delighted to recognize this daughter of Mississippi 
to testify as part of this panel today. Her work has kept our 
state clean and safe so future generations of Mississippians 
and Americans can continue to enjoy our abundant natural 
resources.
    Thank you for your indulgence, Mr. Chairman. I am delighted 
to claim Dr. Trudy Fisher as a friend and to welcome the other 
five members of our distinguished panel.
    [The prepared statement of introduction by Senator Wicker 
follows:]

   Statement of Introduction for Trudy Fisher by Hon. Roger F. Wicker
    Trudy Fisher has served as Executive Director of the Mississippi 
Department of Environmental Quality for the past eight years. She is 
first appointed by Governor Haley Barbour in 2007 and was reappointed 
by Governor Phil Bryant in 2012.
    She was the first woman to serve as the department's director and 
has been instrumental in the aftermath of the BP oil spill in 2010. 
Trudy serves as Mississippi's Trustee under the Oil Pollution Act and 
has served as Chair of the National Resources Damages Assessment's 
Deepwater Horizon Trustee Council, which is comprised of the five Gulf 
States and the four Federal trustees.
    In addition, Trudy serves as Governor Bryant's designee on the 
RESTORE Council, where she oversees and helps implement programs to 
restore the Gulf Coast.
    Before serving as Executive Director, Trudy led an environmental 
law practice and served on the Mississippi Department of Environmental 
Quality's general counsel Trudy received her Bachelor of Science degree 
from the Mississippi University for Women and her law degree from the 
University of Mississippi School of Law.
    She has repeatedly been recognized by her peers as one of the best 
lawyers in America and recently received a rating of ``AV Preeminent,'' 
which is the highest possible legal rating in both ability and ethical 
standards.
    During her time as Executive Director of the Mississippi Department 
of Environmental Quality, Trudy managed a staff of over 400 employees 
and a budget of over $250 million. She is responsible for protecting 
Mississippi's environment and she administers most EPA programs in our 
state. After Hurricane Katrina, the agency, under Trudy's leadership, 
implemented a $640 million wastewater and water infrastructure program 
for the Gulf Coast region.
    Her work has kept our state clean and safe so future generations of 
Mississippians can continue to enjoy our abundant natural resources. We 
greatly appreciate Trudy's service to Mississippi and wish her well in 
her future endeavors. Thank you.

    Senator Nelson. Thank you, Senator.
    Welcome. We are going to hear first from Bruce Andrews, who 
is the Deputy Secretary of Commerce. He is well known to us as 
the former General Counsel for this committee and Chief of 
Staff of this committee. And he was just confirmed to this 
position very recently, within the last few days.
    Then we are going to hear from Justin Ehrenwerth, the 
Executive Director of the RESTORE Council. Welcome.
    As Senator Wicker has already introduced, Trudy Fisher, 
Executive Director of Mississippi Department of Environmental 
Quality.
    And then Mimi Drew, the Governor's Designee to the RESTORE 
Council representing our state, the State of Florida.
    And then Grover Robinson, Commissioner Robinson, the County 
Commissioner of Escambia County, which is Pensacola. And he is 
the new President of the Florida Association of Counties and 
was someone who helped us personally pass the RESTORE Act a 
couple of years ago.
    I think what you have heard some of the Senators say that 
this was almost a miraculous kind of coming together of the 
politics that enabled us just before an election to pass this 
historic piece of legislation. And it was tacked onto a 
transportation bill. The whole RESTORE Act was put on as an 
amendment, and it has made its way through.
    And then finally, we are going to hear from Thomas Kelsch, 
the Senior Vice President of the Gulf Environmental Benefit 
Fund, the National Fish and Wildlife Foundation.
    And so we welcome you all and we will take you--now, we are 
putting your formal statement in the record. If I can forego my 
formal statement, so can you. So do not sit there and read us 
your statement. Talk to us and limit it to about 5 minutes.
    Mr. Andrews?

              STATEMENT OF HON. BRUCE H. ANDREWS,

                 DEPUTY SECRETARY OF COMMERCE,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Andrews. Good morning, Senator Nelson, and thank you. 
Good morning also, other members of the Committee. Thank you 
for inviting me here today to testify regarding Gulf Coast 
restoration. It is good to be back at the Commerce Committee. 
It sort of feels like being home.
    Mr. Chairman, I want to personally thank you for holding 
this hearing and for what a great champion you have been for 
Gulf Coast restoration. I know how important this is to your 
state and you have spoken quite passionately about it.
    The Department of Commerce and the administration are 
strongly committed to restoring the Gulf Coast region, a region 
that is vital to our Nation and our economy.
    In response to the oil spill and building on our prior 
efforts, there are several large-scale initiatives that have 
begun, including the work under the RESTORE Act, which I know 
we want to talk about predominantly today, but also the NRDA 
process and the work through the National Fish and Wildlife 
Foundation. The Department of Commerce, along with our partners 
in both the Federal and State government, are playing an 
important role in each of these initiatives. We are working 
with our partners to advance the common goals and advance the 
goals of the legislation, trying to avoid the duplication of 
these various efforts and maximize the benefits that inure to 
the Gulf Coast region.
    Our goal and our commitment is simply to address the damage 
caused by the spill but also to enhance the long-term 
environmental health and economic prosperity of the region.
    While each of these efforts is important, I want to focus 
today on the RESTORE Act, especially because the previous 
speakers were so focused on its implementation. And as you 
know, the Council is by design a unique State-Federal 
partnership that fosters deliberative decisionmaking. It brings 
together the skills and expertise of all of the parties and 
frankly the variety of perspectives. However, with 11 members, 
there are a number of diverse views and sometimes competing 
interests which, under that, decisionmaking can sometimes take 
time. Yet, we recognize that it is imperative for the Council 
to continue to move forward with all deliberate speed and 
concerted effort to achieve this critical mission, and under 
the Department's leadership, the Council has achieved 
significant progress in setting a foundation to restore the 
Gulf Coast for future generations.
    Most of the Council's efforts to date have been undertaken 
leveraging the existing resources and the personnel both from 
the Council members and from outside sources. And in the fall 
of 2013, the Council was able to access a small amount of the 
initial funding to begin hiring core staff and put basic 
operations in place. Although the Council is still 
administratively housed in the Department of Commerce, we hope 
to have it established as an operational entity by the end of 
this fiscal year, which I think is an important milestone in 
moving all of this forward.
    In August 2013, after extensive public input, the Council 
unanimously passed the Initial Comprehensive Plan, which is 
another important milestone because it helped set a framework 
and build the necessary process for both the project evaluation 
and selection under the plan. The evaluation process provides a 
merit-based selection of projects with also transparency for 
everybody involved to see. It allows for independent science 
review, which is critically important. It provides for 
coordination at the project level with all these various 
efforts, how important that is. And it gives the highest 
priority--and I want to underscore this because I know this was 
mentioned this morning. It gives the highest priority to 
projects that meet one of more of the evaluation criteria that 
were included in the law.
    The Council has developed project submission guidelines and 
anticipates releasing those guidelines in August, which is an 
important milestone in moving all of this forward because that 
will allow us to establish and publish a draft funded 
priorities list for public comment and then for final action.
    Finally, the Council has begun a two-part rulemaking to 
implement the oil spill impact formula component, which also 
has been mentioned here this morning. In the next 2 months, the 
Council anticipates releasing the interim final rule that will 
allow accessing up to 5 percent of the Bucket 3 funds to both 
states and the Florida counties, recognizing how important that 
is for the process moving forward. And concurrently, the 
Council is developing a proposed rule and guidelines that will 
implement the oil spill impact formula. This two-part approach 
will allow us to access the funds that will allow the planning 
process to go forward but also allow the states to develop the 
State expenditure plans in a fair and transparent rulemaking 
process.
    So in conclusion, it has been 4 years since the Deepwater 
Horizon spill. Much progress is made, but we also recognize 
that there is a lot to be done. And the Department of Commerce, 
through our roles in various pieces of the restoration process, 
is committed to continuing the work with the citizens of the 
Gulf Coast to both make smart investments and use available 
resources to wisely restore the region's ecosystem and economy 
for future generations.
    So I appreciate the Committee's time, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Andrews follows:]

       Prepared Statement of Bruce H. Andrews, Deputy Secretary, 
                      U.S. Department of Commerce
Introduction
    Good morning Chairman Nelson, Ranking Member Rubio, and Members of 
the Committee. Thank you for inviting the Department of Commerce to 
testify before you today on the successes and challenges in restoring 
the Gulf Coast region's environment and economy following the Deepwater 
Horizon oil spill.
    The Administration is strongly committed to restoring the Gulf 
Coast region, and I want to thank you for being a champion of Gulf 
restoration. The Gulf Coast region is vital to our Nation and our 
economy, providing valuable energy resources, abundant seafood, 
extraordinary beaches and recreational activities, and a rich cultural 
heritage. Over twenty-two million Americans live in Gulf coastal 
counties and parishes--working in important U.S. industries like 
commercial seafood, shipping, tourism, and oil and gas production. The 
region also boasts ten of America's fifteen largest ports accounting 
for nearly a trillion dollars in trade each year. Its waters and coasts 
are home to one of the most diverse environments in the world--
including over 15,000 species of sea life. Over the past century, the 
Gulf Coast has experienced the loss of critical wetland habitats, 
erosion of barrier islands, imperiled fisheries, and water quality 
degradation. Amplifying these issues, the region has endured 
significant natural and man-made catastrophes in the last decade, 
including major hurricanes such as Katrina, Rita, Gustav, and Ike, and 
the Deepwater Horizon oil spill.
    In response to the oil spill, and building on prior efforts to help 
ensure the long-term restoration and recovery of the Gulf Coast region, 
several large scale restoration initiatives have begun, including work 
under the Resources and Ecosystems Sustainability, Tourist 
Opportunities, and Revived Economies of the Gulf Coast States Act of 
2012 (RESTORE Act); the Natural Resources Damage Assessment process; 
and projects through the National Fish and Wildlife Foundation. While 
each process is subject to different requirements for investing 
resources and each is overseen and managed by a unique set of 
governance arrangements, funding from all of these efforts will be 
directed to Gulf restoration. These efforts are at different stages of 
maturity and implementation. As a practical matter, the total amount of 
funding that ultimately will be available for restoration under the 
RESTORE Act and the Natural Resource Damage Assessment process and the 
timing of those funds is still unknown.
    The Department of Commerce, along with our state and Federal 
partners, plays an important role in each of these initiatives. We 
understand the importance of and are committed to coordination across 
these Gulf restoration initiatives and will work closely with our 
partners to advance common goals, reduce duplication, and maximize the 
benefits to the Gulf Coast region. We recognize this unique and 
unprecedented opportunity to implement a coordinated Gulf region-wide 
restoration effort in a way that restores and protects the Gulf Coast 
environment, reinvigorates local economies, and creates jobs in the 
Gulf region. Our goal and commitment is not simply to address the 
damage caused by the spill--it is to enhance the long term 
environmental health and economic prosperity of the Gulf Coast region 
for generations.
The RESTORE Act
    The RESTORE Act was passed by Congress on June 29, 2012, and signed 
into law by President Obama on July 6, 2012. The RESTORE Act provides 
for planning and resources for a regional approach to the long-term 
health of the valuable natural ecosystems and economy of the Gulf Coast 
region. The RESTORE Act dedicates 80 percent of any civil and 
administrative penalties paid under the Clean Water Act, after the date 
of enactment, by responsible parties in connection with the Deepwater 
Horizon oil spill to the Gulf Coast Restoration Trust Fund (the Trust 
Fund) for ecosystem restoration, economic recovery, and tourism 
promotion in the Gulf Coast region. The RESTORE Act divides the Trust 
Fund into five components and sets parameters for how these funds will 
be spent:

  <bullet> 35 percent of the funds are divided equally among the five 
        Gulf Coast states for ecological and economic restoration. 
        Eligible activities include: restoration and protection of 
        natural resources; mitigation of damage to natural resources; 
        workforce development and job creation; improvements to state 
        parks; infrastructure projects, including ports; coastal flood 
        protection; and, promotion of tourism and Gulf seafood.

  <bullet> 30 percent of the funds will be administered for restoration 
        and protection according to the Comprehensive Plan developed by 
        the Gulf Coast Ecosystem Restoration Council (Council).

  <bullet> 30 percent of the funds are dedicated to the Gulf Coast 
        states based on the Oil Spill Impact Formula set out in the 
        RESTORE Act. This formula will be based on the number of miles 
        of shoreline that experienced oiling, the distance from the 
        Deepwater Horizon mobile drilling unit at the time of the 
        explosion, and the average population as of the 2010 Census. 
        Each state is required to have a Council-approved plan in place 
        for use of these funds.

  <bullet> 2.5 percent of the funds are dedicated to the Gulf Coast 
        Ecosystem Restoration Science, Observation, Monitoring and 
        Technology Program. The National Oceanic and Atmospheric 
        Administration (NOAA) will establish a Gulf Coast Ecosystem 
        Restoration, Science, Observation, Monitoring and Technology 
        Program for marine and estuarine research, ecosystem monitoring 
        and ocean observation, data collection and stock assessments, 
        and cooperative research.

  <bullet> 2.5 percent of the funds are dedicated to the Centers of 
        Excellence Research Grants Program. The Centers of Excellence 
        Research Grants funding is distributed through the states to 
        nongovernmental entities to establish centers of excellence 
        that will focus on the following disciplines: coastal and 
        deltaic sustainability; restoration and protection; fisheries 
        and wildlife ecosystem research and monitoring; offshore energy 
        development; sustainable and resilient growth; and 
        comprehensive observation, monitoring and mapping in the Gulf.

    In addition, interest generated from the funds in the Trust Fund is 
allocated among the NOAA Science Program, the Centers of Excellence, 
and Council implementation of the Comprehensive Plan.
    The Department of Commerce plays a key leadership role in 
implementation of the RESTORE Act. The Secretary of Commerce serves as 
a member and is honored to serve as the Chairperson of the Council. In 
this role, the Department has brought together a diverse range of 
expertise and experience from across our bureaus, including NOAA's 
expertise in science-based natural resource restoration, the Economic 
Development Administration's expertise in sustainable economic 
development, and International Trade Administration's expertise in 
travel and tourism promotion, to help implement the integrated approach 
to Gulf restoration envisioned by the RESTORE Act. In addition, the 
Department of Commerce through NOAA is responsible for establishing and 
implementing the Gulf Coast Ecosystem Restoration, Science, 
Observation, Monitoring and Technology Program.
Gulf Coast Ecosystem Restoration Council
    The RESTORE Act established the Council to help restore the 
ecosystem and economy of the Gulf Coast region by developing and 
overseeing implementation of a Comprehensive Plan and carrying out 
other responsibilities. The Council is comprised of the Governors of 
the States of Alabama, Florida, Louisiana, Mississippi and Texas and 
the Secretaries of the U.S. Departments of Commerce, Agriculture, Army, 
Homeland Security and the Interior, and the Administrator of the U.S. 
Environmental Protection Agency. The Council has oversight over the 
expenditure of sixty percent of the funds made available from the Trust 
Fund: thirty percent will be administered for restoration and 
protection according to the Comprehensive Plan developed by the Council 
and thirty percent will be allocated to the states according to a 
formula set forth in the RESTORE Act and spent according to individual 
state expenditure plans to contribute to the overall economic and 
ecological recovery of the Gulf. The state expenditure plans will be 
consistent with the goals and objectives of the Comprehensive Plan and 
are subject to the Council's approval. The Council will oversee and 
implement this funding with the goal of a coordinated federal, state, 
and local long-term recovery approach.
    The Council is committed to working with Gulf communities and 
partners to invest in actions, projects, and programs that will ensure 
the long-term environmental health and economic prosperity of the Gulf 
Coast region. To guide these investments, the Council has adopted five 
overarching goals:

  <bullet> Restore and Conserve Habitat;

  <bullet> Restore Water Quality;

  <bullet> Replenish and Protect Living Coastal and Marine Resources;

  <bullet> Enhance Community Resilience; and,

  <bullet> Restore and Revitalize the Gulf Economy.
Implementation--Progress and Challenges
    The Council is by design a unique state-federal partnership that 
fosters deliberative decision-making, allows for the coordinated use of 
the expertise of its members, and provides a mechanism to maximize the 
opportunity for collaboration and ultimate success. One of the 
Council's strengths is its ability to bring together each state and 
Federal agency's capabilities and expertise; however, with eleven 
members with diverse views, and sometimes competing interests, 
decision-making requires cooperative effort and can take time. 
Nonetheless, the Council and its members continue to proceed with 
deliberate speed and concerted effort to meet key milestones and 
achieve common goals.
    The Department of Commerce recognizes that it is imperative that 
the Council move forward efficiently to achieve its critical mission. 
Under the Department's leadership, the Council has made significant 
progress in setting up a strong foundation to restore the Gulf coast. 
During the first year, the Council established basic processes; 
assembled a transition staff; developed and published a proposed 
Comprehensive Plan; developed and published an Initial Comprehensive 
Plan and accompanying environmental compliance documents; hosted public 
listening sessions in all five Gulf Coast states with over 2,000 
individuals in attendance; and hired key management positions, 
including an Executive Director and Chief Financial Officer. Since the 
Comprehensive Plan was approved in late August 2013, the Council has 
taken important steps to implement the Comprehensive Plan and fund 
projects under the Plan. During the past year, the Council also has 
worked on developing a regulation for the Oil Spill Impact Formula 
Component and is preparing to review and fund projects under state 
expenditure plans.
Standing up a New Independent Entity in the Federal Government
    One of the major challenges of standing up the new independent 
entity has been the lack of dedicated resources. Most of the Council's 
efforts to date have been undertaken by leveraging existing resources 
and personnel from Council members and outside sources. The Department 
of Commerce has dedicated significant Departmental resources to help 
the Council in this start-up period. We have contributed both personnel 
and basic support services to the Council, including human resources, 
IT, payroll, legal and contracting. While awaiting the Treasury 
regulations, the Department of Commerce worked with the Department of 
Treasury and the Council to make initial funding accessible to the 
Council to begin hiring core staff, put basic operations in place, and 
to make further progress on implementation. This Fiscal Year, the 
Council continued to focus on building operational capacity, 
establishing institutional procedures and infrastructure, and 
implementing key milestones to enable it to be prepared to begin 
selecting and funding projects. Justin Ehrenwerth, the Council's 
Executive Director, will go into more detail about this. The Council is 
still administratively housed within the Department with the goal of 
establishing an operationally independent Federal entity by the end of 
this Fiscal Year. To that end, the Council has begun recruiting for key 
staff positions and selecting a more permanent office in the Gulf 
region.
Developing a Comprehensive Plan and Funded Priorities List Under the 
        Plan
    After extensive public input, the Council unanimously approved the 
Initial Comprehensive Plan on August 28, 2013. This major 
accomplishment provides a framework to implement a coordinated, Gulf 
Coast region-wide restoration effort in a way that restores, protects, 
and revitalizes the Gulf Coast. The Council deferred developing a 
Funded Priorities List and Ten-Year Funding Strategy (i.e., a 
description of the allocation of the amounts from the Trust Fund 
projected to be made available to the Council to implement the Plan for 
the next ten years). Over the past several months, the Council has 
built the necessary steps to operationalize the project selection and 
vetting process described in the Comprehensive Plan. This project 
selection and vetting process provides for a merit-based selection of 
projects to achieve comprehensive ecosystem restoration. It 
incorporates an independent peer review evaluation to ensure projects 
are grounded in science, provides for coordination at a project level 
with other restoration efforts, and gives the highest priority to 
projects that meet one or more of the evaluation criteria enumerated in 
the law. The Council also developed project submission guidelines. The 
Council anticipates releasing the project submission guidelines and 
beginning review of the submissions in August. Using this process, the 
Council will develop the draft Funded Priorities List. The Council will 
publish the draft list for public review and comment before finalizing 
the list and incorporating it into the Plan. It should be noted that 
the Council faces the challenge of making strategic funding decisions 
that will achieve comprehensive Gulf-wide restoration without knowing 
the total amount of money that will be available.
Progress on Implementing Oil Spill Impact Formula Component
    The Council has begun a two-part rulemaking to implement the Oil 
Spill Impact Formula Component. The first part will take the form of an 
interim final rule that would provide access to the states and Florida 
counties of up to 5 percent of funds for planning. The Council 
anticipates releasing this rule in the next two months. Concurrently, 
the Council is developing a proposed rule and guidelines that will 
implement the oil spill impact formula. The proposed rule will be 
published for public notice and comment. This approach will allow 
access to funds to develop a state expenditure plan while providing a 
fair and transparent rulemaking process.
RESTORE Act Gulf Coast Ecosystem Restoration Science, Observation, 
        Monitoring, and Technology Program
    In addition to the Department's work within the Council, another 
key element of the Department's efforts to implement the RESTORE Act is 
the responsibility to establish a Gulf Coast Ecosystem Restoration 
Science, Observation, Monitoring, and Technology Program (NOAA RESTORE 
Act Science Program or the Program). In January 2013, NOAA established 
this Program. The Program will receive 2.5 percent of the funds, plus 
25 percent of the interest, from the Trust Fund.
    To develop the Program, NOAA worked diligently with the U.S. Fish 
and Wildlife Service (USFWS), and with key stakeholders including the 
Gulf of Mexico Fishery Management Council (FMC), the Gulf States Marine 
Fisheries Commission (Commission), the five Gulf states, Federal 
partners, academic institutions, non-profit organizations and other 
entities across the Gulf region. The Program seeks to achieve a 
holistic understanding of the Gulf of Mexico ecosystem and support, to 
the maximum extent practicable, restoration efforts and the long-term 
sustainability of the ecosystem, including its fish stocks, habitats, 
and fishing industries.
Program Engagement and Coordination
    To be successful, the NOAA RESTORE Act Science Program must harness 
the expertise of the scientific community in the Gulf of Mexico and 
beyond, and link it to the region's pressing science needs. An 
engagement process that connects researchers, resource managers, and 
resource users and allows their collective knowledge to inform the 
Program's direction is required. NOAA, working with its USFWS partners, 
initiated this engagement process early in the program development 
phase and has continued it as it moves to early stages of 
implementation. NOAA and USFWS have already held over 100 meetings with 
stakeholders including representatives from the Commission, the FMC, 
universities, Federal agencies, and non-governmental organizations. 
These meetings shaped the Program's current framework and continued 
engagement is shaping the development of the Program's science plan.
    It is important to keep in mind that this Program is one of several 
recently created research programs focused on increasing our 
understanding of the Gulf of Mexico. Others include the Gulf Research 
Program at the National Academies, the Gulf of Mexico Research 
Initiative, and the State Centers of Excellence also authorized in the 
RESTORE Act. These programs will add their activities to the existing 
Federal and other research programs already active in the Gulf of 
Mexico. NOAA is actively engaging and coordinating with these other new 
initiatives, as well as with existing research programs.
Program Organization and Next Steps
    The Program is housed within the National Ocean Service's National 
Center for Coastal Ocean Science (NCCOS). NCCOS's experience running 
grant programs focused on pressing coastal and ocean issues, its 
experience working in the Gulf of Mexico, and its demonstrated ability 
to transfer the results of researchers to resource managers make it a 
logical home for the Program. An Executive Oversight Board internal to 
NOAA and the USFWS will keep the program connected to the other 
research programs within NOAA and the USFWS. An Advisory Working Group 
established under NOAA's Science Advisory Board and comprised of 
subject matter experts as well as representatives of various Gulf of 
Mexico science programs including the Commission, FMC, and RESTORE Act 
Centers of Excellence will keep the Program connected to the larger 
science community. A Gulf-based director for the Program will keep the 
Program grounded in the region.
    The Program currently is developing a science plan that will guide 
program implementation and anticipates releasing the draft plan for 
public comment by Fall 2014. In addition to providing additional detail 
on the structure and administration of the Program, the science plan 
will lay out the science priorities for the Program, the connection of 
those priorities to management needs, and the expected outputs and 
outcomes that will result from the activities competitively funded 
under each priority. The priorities are being drawn from prior science 
and research needs assessments for the Gulf of Mexico and from input 
the Program received from stakeholder engagement. Once finalized, the 
science plan will guide the development of the competitive Federal 
funding opportunities the Program will support.
    Early in the development of the Program, it became apparent that 
there was a pressing need to provide support for short-term projects 
whose results would inform the future direction of the Program, as well 
as the other science and restoration initiatives underway or being 
planned for the region. As a result, the Program has developed an 
initial Federal funding opportunity around the short-term priorities 
identified in the Program's science plan framework. Those short-term 
priorities are:

  <bullet> Comprehensive inventory and assessment (i.e., strengths and 
        weaknesses) of ongoing ecosystem modeling efforts (conceptual 
        and quantitative);

  <bullet> Identification of currently available health/condition 
        indicators of Gulf of Mexico ecosystem components, including 
        humans, followed by comparative analysis of strengths and 
        weaknesses and design and testing of additional indicators; 
        and,

  <bullet> Assessment of monitoring and observation needs and 
        development of recommendations to build off existing assets to 
        establish a Gulf wide monitoring and observation network.

    This opportunity will be available once the Treasury regulations 
are in effect. The NOAA RESTORE Science Program represents an 
opportunity and capacity to help integrate the disparate science 
efforts across the Gulf and advance overall understanding of the Gulf 
of Mexico as an integrated ecosystem. The Program will contribute to 
the science needed for the long-term sustainability of the Gulf of 
Mexico ecosystem, including its fisheries, and help inform restoration 
and management efforts.
The Department of Commerce's Natural Resources Damage Assessment Role
    Another important Gulf restoration effort is the Natural Resources 
Damage Assessment (NRDA) process. The Department of Commerce, 
represented by NOAA, has a critical role under the Oil Spill Pollution 
Act (OPA) serving as a natural resource trustee. NOAA, along with its 
co-trustees, is charged under the Act with conducting a Natural 
Resource Damage Assessment to assess the natural resources and the 
damage to them caused by the oil spill and the response, as well as the 
value of the lost use of those resources until they are restored. This 
is an injury to the public, and the public availability of those 
resources, and is in addition to any individual injury caused by the 
spill. The OPA requires the Trustees to use the damage assessment as 
the basis for developing a restoration plan with public review and 
input. The Trustees then present the restoration plan to responsible 
parties (primarily BP Exploration and Production Inc. (BP)) for 
funding, and either BP agrees to fund it or the Trustees file it with 
the Court as a claim for litigation. The essence of the process is to 
identify and quantify the injury to resources caused by the spill, 
determine the type and amount of restoration needed to restore the 
resources to their pre-spill state or provide equivalent alternative 
resources, and compensate for their interim lost use. Inherent in this 
process is the need to assess the injuries to natural resources that 
are caused by the oil spill itself, as well as those caused by actions 
carried out as part of the oil spill response. For restoration, OPA 
requires the trustees to restore, rehabilitate, replace, or acquire the 
equivalent of the injured natural resources and services and in doing 
so there must be a nexus between the types and magnitude of the injury 
and the restoration.
    In general, stewardship of the Nation's natural resources is shared 
among several Federal agencies, states, and federally recognized 
tribes. NOAA, acting on behalf of the Secretary of Commerce, is the 
lead Federal trustee for many of the Nation's Federal coastal and 
marine resources.
    The Deepwater Horizon NRDA Trustees (NRDA Trustees) are, in 
addition to NOAA, the trustee agencies from the States of Florida, 
Alabama, Mississippi, Louisiana and Texas; and the U.S. Department of 
the Interior (DOI), the U.S. Environmental Protection Agency (EPA), and 
the U.S. Department of Agriculture (USDA). These nine entities (five 
states and four Federal agencies) have formed a Trustee Council that 
has worked cooperatively since shortly after the Deepwater Horizon 
spill to assess compensable injuries caused by the spill, and to 
develop a restoration plan to restore affected Gulf resources, 
compensate for lost uses including lost human uses, and to implement 
those plans. We note that two of the Federal agencies--EPA and USDA--
were added by Executive Order in September, 2012, and have joined the 
cooperative efforts since that time.
    NRDA regulations explicitly seek participation in the assessment 
and restoration planning by responsible parties and the NRDA Trustees 
to facilitate the restoration of natural resources and their services 
injured or lost by oil spills. The nature and extent of participation 
in restoration planning is left to the discretion of the NRDA Trustees. 
OPA also encourages compensation of injured natural resources in the 
form of restoration, with public involvement in determining the types 
and magnitude of the restoration. Indeed, public involvement is an 
important component of the OPA and of the National Environment Policy 
Act Environmental Impact Statement processes that work together to 
inform decisions about restoration plan development and implementation.
    Assessing injury to natural resources in this context is 
challenging. Understanding complex ecosystems, the services these 
ecosystems provide, and the injuries caused by the release of oil and 
the response takes time--often years. The time of year the resource was 
injured, the type and source of oil, the amount and duration of the 
release, the location, and the nature and extent of clean-up are among 
the many diverse factors that affect how quickly injury to resources 
can be assessed, and restoration and recovery planning and 
implementation can occur. The OPA requires that trustees be able to 
demonstrate connections between the release of the oil, exposure of the 
resources to the oil, and, finally, a causal connection between 
exposure and resource injury. Exposure and its effects on the resource 
can be direct and/or indirect. For example, the health of a dolphin 
might be adversely affected by being directly exposed to the oil in the 
water. It may also be exposed and affected indirectly by eating prey 
that becomes contaminated by the oil.
    In addition, because the NRDA forms the basis for a restoration 
plan that may be litigated, an especially careful level of scientific 
rigor is required for the studies that are to demonstrate these 
connections in order to ensure that our studies will be accepted by a 
court as evidence in the case. For all of these reasons, the assessment 
and the restoration plan based on it may take a numbe r of years to 
complete and even more time to implement. For example, the implementati 
on of the restoration plan for the Exxon Valdez oil spill that occurred 
in 1989 is still ongoing. The NRDA process requires an objective, 
scientifically rigorous, and cost-effective assessment of injuries--and 
development of a restoration plan with public input that assures that 
harm to the public's resources is fully addressed.
Natural Resource Damage Assessment Early Restoration
    In April 2011, the NRDA Trustees announced an agreement under which 
BP would provide $1 billion toward implementation of early restoration 
projects. This agreement is called the Framework Agreement for Early 
Restoration Addressing Injuries Resulting from the Deepwater Horizon 
Oil Spill (Framework Agreement). A separate agreement among the NRDA 
Trustees allocated that $1 billion as follows: the five state trustees, 
DOI, and NOAA are each allocated $100 million for funding early 
restoration projects pertaining to injury to their primary trust 
resources. The remaining $300 million is to be used to fund additional 
state-proposed restoration projects as selected by NOAA and DOI. All 
projects must be approved by the NRDA Trustee Council and are subject 
to BP approval through its agreement to stipulations that all Trustees 
sign and BP agrees to. The Framework Agreement represents an initial 
step toward fulfilling BP's obligation to fund the complete restoration 
of injured natural resources and compensate for lost use of those 
resources.
    The NRDA Trustees' key objective in pursuing early restoration is 
to achieve tangible recovery of natural resources and natural resource 
services for the public's benefit while the longer-term injury and 
damage assessment and restoration plan development is under way. As 
with the more complete assessment and restoration planning process, a 
restoration plan with opportunity for public input must accompany early 
project selection.
Phase I and Phase II Early Restoration
    The first early restoration plan, the Phase I Early Restoration 
Plan & Environmental Assessment (Phase I ERP/EA), was presented for 
public review and comment in December 2011 and finalized by the NRDA 
Trustees in April 2012. The eight projects included in the Phase I ERP/
EA are now being implemented and collectively will provide marsh 
creation, coastal dune habitat improvements, near-shore artificial reef 
creation, and oyster cultch restoration, as well as the construction 
and enhancement of boat ramps to compensate for lost recreational use 
of resources. The total estimated cost for the Phase I ERP/EA is $62 
million.
    The NRDA Trustees presented the Phase II Early Restoration Plan & 
Environmental Review (Phase II ERP/ER) for public review and comment in 
November 2012 and finalized it in December 2012. The Phase II ERP/ER 
projects, of which there are two, will help restore nesting habitats 
for beach-nesting birds and sea turtles harmed as a result of spill 
response activities. The total estimated cost for these two projects is 
$9 million. Implementation of both of these projects has begun and, for 
some project components, construction is in progress.
Phase III Early Restoration
    To initiate the third phase of early restoration, the NRDA Trustees 
in December 2013 released a draft plan that proposed more than $600 
million in new restoration projects across the Gulf states. The Draft 
Programmatic and Phase III Early Restoration Plan and Draft Early 
Restoration Programmatic Environmental Impact Statement (Draft Phase 
III ERP/PEIS) were available for public review and comment through Feb. 
19, 2014. The NRDA Trustees held a total of nine public meetings across 
the Gulf Coast during this public comment period to spur public 
engagement, and also accepted comments on the draft plan via numerous 
other avenues, including the Trustees' website, e-mail, and U.S. Mail. 
In June 2014, the Federal natural resource trustee agencies and the 
state natural resource trustee agencies from Alabama, Florida, 
Louisiana, and Mississippi released the Final Programmatic and Phase 
III Early Restoration Plan and Programmatic Environmental Impact 
Statement (Final Phase III ERP/PEIS) and associated environmental 
analyses to the public. The plan outlines 44 proposed projects totaling 
an estimated $627 million. Projects focused on ecological restoration 
represent 63 percent of the total dollar amount of projects, while the 
remaining 37 percent focus on restoring lost recreation uses of natural 
resources. The Plan also identifies a preferred programmatic strategy 
for early restoration actions. This programmatic strategy may also 
serve as the base document from which to tier subsequent environmental 
compliance evaluation for future early restoration plans. More 
information is available at www.gulfspillrestoration.noaa.gov.
    Final decisions on both the programmatic early restoration plan 
alternatives and each of the 44 projects will be documented in a final 
record of decision. The record of decision for the Final Phase III ERP/
PEIS will provide and explain the NRDA Trustees' decisions regarding 
the selection of a programmatic early restoration alternative and 
specific early restoration projects. The NRDA Trustees will issue the 
record of decision no earlier than 30 days after the Environmental 
Protection Agency publishes a notice in the Federal Register, which 
occurred on June 27, 2014, announcing the availability of the Final 
Phase III ERP/PEIS.
National Fish and Wildlife Foundation-Gulf Environmental Benefit Fund
    In early 2013, a U.S. District Court approved two plea agreements 
resolving certain criminal cases against BP and Transocean which arose 
from the 2010 Deepwater Horizon explosion and oil spill. The agreements 
direct a total of $2.544 billion to the National Fish and Wildlife 
Foundation (NFWF) to fund projects benefiting the natural resources of 
the Gulf Coast that were impacted by the spill. Pursuant to the plea 
agreements, NFWF is required to consult with natural resource 
management agencies, including NOAA and USFWS, on the identification 
and prioritization of appropriate projects for Gulf of Mexico 
restoration.
    Over the next five years, NFWF's Gulf Environmental Benefit Fund 
will receive a total of $1.272 billion for barrier island and river 
diversion projects in Louisiana, $356 million each for natural resource 
projects in Alabama, Florida, and Mississippi, and $203 million for 
similar projects in Texas.
Conclusion
    It has been four years since the Deepwater Horizon oil spill. Much 
progress has been made, and there is still much to be done. The 
Department of Commerce, through our roles in all of these large Gulf 
restoration efforts, is committed to continuing to work with the 
citizens of the Gulf Coast to make smart investments and use available 
resources wisely to restore the region's ecosystem and economy. 
Although the Council faces challenges implementing portions of the 
RESTORE Act, the Department is committed to ensuring that this Council 
continues to work with deliberate speed and focused effort to help 
restore the Gulf Coast region's environment and economy.
    Thank you again, Chairman Nelson and Members of the Committee, for 
the opportunity to discuss the Department of Commerce's role in Gulf of 
Mexico restoration. I appreciate the Committee's time and attention, 
welcome any questions, and look forward to working with you further on 
this important effort.

    Senator Nelson. Thank you, Mr. Andrews.
    Mr. Ehrenwerth?

  STATEMENT OF JUSTIN R. EHRENWERTH, EXECUTIVE DIRECTOR, GULF 
              COAST ECOSYSTEM RESTORATION COUNCIL

    Mr. Ehrenwerth. Good morning, Chairman Nelson, Senator 
Wicker, and members of the Committee. I appreciate the 
opportunity to speak with you today about the Council's work 
for its implementation of the RESTORE Act and our restoration 
mission.
    In the same spirit of cooperation and collaboration that 
Congress exhibited in the passage of the RESTORE Act, Council 
members are working together to create a foundation for 
collaborative work that will allow us to efficiently and 
effectively fund large-scale ecosystem restoration across the 
Gulf.
    While this has taken more time than the Council members 
anticipated, we believe that we have had some time well spent 
and this initial investment of time and resources will result 
in a more efficient, responsible, and successful organization.
    Due to the ongoing litigation against BP and some of the 
other responsible parties, there remains tremendous uncertainty 
about the amount and ultimate timing of funding that will be 
available for our work. The Council recognizes the need to 
continue to move forward in getting project implementation 
underway while taking the time to get this right.
    We applaud Congress for creating the Council as an 
independent entity in the Federal Government. In so doing, 
Congress provided the opportunity for this Council to leverage 
the tremendous expertise of the five Gulf Coast States and the 
six Federal agencies which are just invaluable resources that 
will facilitate sound and inclusive restoration decisions.
    While the Council remains administratively housed in the 
Department of Commerce, as Deputy Secretary Andrews said, we 
expect to be fully independent by the end of this fiscal year. 
And indeed, over the past year, we have taken a number of steps 
on the very complex road of establishing a new independent 
entity in the Government, which are more fully described in my 
written testimony.
    One of the Council's primary responsibilities was to 
develop a comprehensive plan to restore the ecosystem and 
economy of the Gulf, a plan that we did issue in August of 
2013. Due to the uncertainty in the amount and timing of funds 
that will be available, as well as the fact that the states 
could not finish their own planning efforts without guidance 
from the comprehensive plan, our initial plan did not include a 
list of projects to be funded. I am very pleased to report 
today that the Council has finalized the selection process of 
this element of our work. The selection process will allow the 
Council to invest early in specific actions that will be 
carried out in the near term with known funding. The process 
will ensure that the Council honors the requirements of the 
Act, that our decisions are made on the best available science, 
and that we carry out our work in a transparent and inclusive 
fashion.
    The Council anticipates soliciting project submissions from 
its members next month and have a draft list of projects 
published for public review in 2015.
    While the Council will select and fund ecosystem 
restoration projects according to our comprehensive plan, spill 
impact component funds will be invested in projects and 
programs identified in State expenditure plans. In recognition 
of the need to provide funding for planning and development of 
these state plans, I am very pleased to report today that the 
Council will publish an interim final rule this summer that 
will allow the states and counties in Florida to access funds 
for planning purposes. Concurrently, the Council will continue 
to move forward with publishing a draft regulation that 
addresses the additional requirements of the spill impact 
component, including an impact allocation formula. The Council 
is committed to working collaboratively to address these 
complex issues involved with this aspect of our mission.
    Our Council continues to closely coordinate our restoration 
activities with so many of our key partners, including the 
National Fish and Wildlife Foundation, the NRDA Trustee 
Council, States, Federal agencies, tribes, and so many other 
entities working in the region. We are actively engaged at many 
levels to coordinate so that we advance common goals, avoid 
duplication, and maximize the benefits to the Gulf Coast 
region. While we all represent different organizations with 
varied missions, we are all committed to the collective 
restoration of the Gulf.
    Four years after the unprecedented disaster in the Gulf and 
2 years after the passage of the RESTORE Act and thanks to the 
leadership, foresight, and cooperation of a bipartisan 
Congress, we are poised to chart a new future for the natural 
resources, economy, and communities of the Gulf. More than 
process, more than any individual project, this effort is about 
ensuring that the people and wildlife who call the Gulf home 
can do so for many generations to come. We take our charge to 
move forward quickly and efficiently very seriously. The 
Council appreciates this Committee's support of our efforts and 
for the opportunity to share our progress with you.
    Thank you.
    [The prepared statement of Mr. Ehrenwerth follows:]

    Prepared Statement of Justin R. Ehrenwerth, Executive Director, 
                Gulf Coast Ecosystem Restoration Council
    Good morning Chairman Nelson, Ranking Member Rubio, and Members of 
the Committee. My name is Justin Ehrenwerth and I am the Executive 
Director of the Gulf Coast Ecosystem Restoration Council (Council). I 
appreciate the opportunity today to speak to the Committee about the 
Council's work towards implementation of the RESTORE Act and 
comprehensive restoration of the Gulf of Mexico region.
    My comments today will focus on the Council's progress to date on 
implementation of the RESTORE Act. The Council recognizes the 
incredible opportunity the RESTORE Act represents for the Gulf of 
Mexico and the imperative that we get this right. In the two years 
since passage of the Act, the Council has worked to develop the 
foundational steps necessary to stand up and administer an independent 
Federal entity whose charge will be to select and fund restoration 
projects in the Gulf region. While this has taken more time than 
Council members anticipated, we believe it is time well spent and will 
result in a more efficient, responsible and successful organization.
    With the RESTORE Act, Congress brought together the five impacted 
Gulf Coast states with six Federal agencies, creating an independent 
entity with an unprecedented amount of restoration expertise and 
knowledge. In the same spirit of cooperation and collaboration that 
Congress exhibited in the passage of the Act itself, Council members 
are working together to create a foundation for collaborative work that 
will allow us to efficiently and responsibly fund and implement large-
scale restoration projects across the Gulf, the likes of which the 
region has not seen.
    The Gulf region is vital to our Nation and our economy, providing 
valuable natural resources, abundant seafood, extraordinary beaches, 
recreational activities and a rich cultural heritage. Its waters and 
coast are home to one of the most diverse ecosystems in the world, 
including over 15,000 species of sea life. Over twenty two million 
Americans live in Gulf coastal communities. Despite this richness, the 
health of the region's ecosystem has been significantly impacted over 
the last several decades. The Gulf Coast region has experienced loss of 
critical wetland habitats, erosion of barrier islands and other coastal 
areas, imperiled fisheries, water quality degradation and significant 
coastal land loss due to the alteration of hydrology, other human 
activities, and natural forces.
    Against this backdrop of both abundance and decline, the explosion 
of the Deepwater Horizon rig on April 20, 2010 cost eleven men their 
lives and set into motion one of the largest man-made disasters in our 
Nation's history. While thousands of people worked to stop the flow of 
oil from the wellhead and protect our shorelines, wildlife and coastal 
communities, we also looked to the future. We understood that an event 
of this magnitude would take the collective thinking and cooperation of 
the entire region to ensure that the Gulf recovered.
    Two years after the passage of the RESTORE Act, and four years 
after the explosion of the Deepwater Horizon rig, the Council is well-
positioned to begin the process of selecting restoration projects in 
the next several months. The Council has made significant progress 
toward finalizing the activities and processes required to lay a solid 
foundation for large-scale restoration in the future.
    There are a number of challenges the Council must address in 
executing its mission. Due to the ongoing litigation against BP and 
other responsible parties, there remains tremendous uncertainty 
regarding the ultimate amount of funding that will be available for 
restoration projects as well as the timing of its availability. The 
Council recognizes the need to move forward in getting project 
implementation underway while at the same time planning for a future 
that is still uncertain. Indeed, the Council must consistently balance 
the urgency to move forward quickly and efficiently with the need to 
take the time to get this right. That said, the foundational steps are 
now almost complete and will serve to expedite our ability to fund 
projects from both the Comprehensive Plan and Spill Impact Components 
once Trust Funds become available.
Overview of the RESTORE Act and the Council
    Passed in 2012, the RESTORE Act envisions a regional approach to 
restoring the long-term health of the valuable natural ecosystems and 
economy of the Gulf Coast region. The RESTORE Act dedicates eighty 
percent of any civil and administrative penalties paid under the Clean 
Water Act, after July 6, 2012, by responsible parties in connection 
with the Deepwater Horizon oil spill to the Gulf Coast Restoration 
Trust Fund (the Trust Fund) for ecosystem restoration, economic 
recovery, and tourism promotion in the Gulf Coast region.
    In addition to establishing the Trust Fund, the RESTORE Act 
establishes the Council as an independent entity in the Federal 
Government. The Council is charged with helping to restore the 
ecosystem and economy of the Gulf Coast region by developing and 
overseeing implementation of a Comprehensive Plan and carrying out 
other responsibilities. The Council is currently chaired by the 
Secretary of the U.S. Department of Commerce.
    The Council has oversight over the expenditure of sixty percent of 
the funds made available from the Trust Fund. Thirty percent will be 
administered for restoration and protection according to the 
Comprehensive Plan developed by the Council. The other thirty percent 
will be allocated to the States according to a formula established by 
the Council by regulation and spent according to individual State 
Expenditure Plans to contribute to the overall economic and ecological 
recovery of the Gulf.
Administrative Establishment of the Gulf Coast Ecosystem Restoration 
        Council
    The Council applauds Congress for creating the Council as an 
independent entity in the Federal Government.\1\ In so doing, Congress 
provided the opportunity to leverage the tremendous expertise of the 
five Gulf States as well as that of six agencies in the Executive 
Branch--invaluable resources that will facilitate sound and inclusive 
restoration decisions and inform the manner in which we go about a task 
as large and complex as the comprehensive restoration of the Gulf of 
Mexico.
---------------------------------------------------------------------------
    \1\ ``ESTABLISHMENT.--There is established as an independent entity 
in the Federal Government a council to be known as the `Gulf Coast 
Ecosystem Restoration Council' '' 33 U.S.C. 1321(t)(2)(C)(i).
---------------------------------------------------------------------------
    While the Council remains administratively housed in Department of 
Commerce, we expect to be fully independent from Commerce by the end of 
FY14. Indeed, over the past year, the Council has taken many steps on 
the complex road of establishing a new, independent entity in the 
Federal Government. For example, the Council has been established as an 
independent entity with the Office of Management and Budget, the U.S. 
Treasury Department, the Office of Personnel Management and the General 
Services Administration. The Council also executed Memoranda of 
Understanding (MOU) with Treasury for access to administrative and 
programmatic funds in order to support start-up operations and to begin 
hiring staff. The Council has established a number of internal and 
financial controls as well as core operating systems including 
accounting, human resources, procurement, website hosting and travel.
    The Executive Director and Chief Financial Officer/Director of 
Administration have been in place since mid-2013. Additional core staff 
capacity has been made possible by details and temporary personnel 
assignments from member agencies and others. Though organizational 
independence is beneficial, there are challenges associated with 
standing up any new independent Federal agency. The Council has worked 
to overcome the budget challenges of starting operations from the 
ground-up by relying on our member states and agencies.
    The Council members recognize the great task ahead of them, and as 
the members have worked together to advance a complicated and critical 
restoration mission, the Council has evolved and strong relationships 
have been established.
Council-Selected Restoration Component
    One of the Council's primary responsibilities is to develop a 
Comprehensive Plan to restore the ecosystem and economy of the Gulf 
Coast region. The Council approved an Initial Comprehensive Plan (Plan) 
in August 2013 that outlines overarching goals for restoring and 
protecting the natural resources of the Gulf.
    To develop the Plan, the Council carefully reviewed the findings 
and recommendations of the Gulf Coast Ecosystem Restoration Task Force 
Strategy (Strategy). The Council also reviewed numerous existing local, 
regional, state, and Federal plans to inform the development of the 
Plan. The Council initiated a robust public engagement process to 
receive input from diverse voices from across the region. The Council 
hosted fourteen public meetings with over 2,300 attendees; over 41,000 
public comments on the Draft Initial Comprehensive Plan and 
accompanying Programmatic Environmental Assessment were received. These 
comments were considered and incorporated, as appropriate, into the 
Initial Comprehensive Plan.
    Building on the strong foundation established in the Task Force 
Strategy and other local, regional, state, and Federal plans, the 
Council is taking an integrated and coordinated approach to Gulf Coast 
restoration. This approach strives to both restore the Gulf Coast 
region's environment and, at the same time, revitalize the region's 
economy because the Council recognizes that ecosystem restoration 
investments may also improve economic prosperity and quality of life. 
In addition, this approach acknowledges that coordinated action with 
other partners is important to successfully restore and sustain the 
health of the Gulf Coast region. This coordination is particularly 
important because diverse funding sources and decision-making bodies 
are simultaneously investing in Gulf Coast restoration.
    To provide the overarching framework for an integrated and 
coordinated approach for region-wide Gulf Coast restoration and to help 
guide the collective actions at the local, state, tribal and Federal 
levels, the Council has adopted five goals:

  (1)  Restore and Conserve Habitat--Restore and conserve the health, 
        diversity, and resilience of key coastal, estuarine, and marine 
        habitats.

  (2)  Restore Water Quality--Restore and protect water quality of the 
        Gulf Coast region's fresh, estuarine, and marine waters.

  (3)  Replenish and Protect Living Coastal and Marine Resources--
        Restore and protect healthy, diverse, and sustainable living 
        coastal and marine resources.

  (4)  Enhance Community Resilience--Build upon and sustain communities 
        with capacity to adapt to short-and long-term changes.

  (5)  Restore and Revitalize the Gulf Economy--Enhance the 
        sustainability and resiliency of the Gulf economy.

    The fifth goal focuses on reviving and supporting a sustainable 
Gulf economy to ensure that those expenditures by the Gulf Coast States 
authorized in other sections of the RESTORE Act, such as the Direct 
Component and the Spill Impact Component, can be considered in the 
context of comprehensive restoration. To achieve all five goals, the 
Council will support ecosystem restoration that can enhance local 
communities by giving people desirable places to live, work, and play, 
while creating opportunities for new and existing businesses of all 
sizes, especially those dependent on natural resources. In addition, 
the Council will support ecosystem restoration that has the added 
benefit of building local workforce capacity.
    The RESTORE Act requires creation of a ``Funded Priorities List'' 
(FPL) that indicates which projects and programs the Council intends to 
fund. The Initial Plan did not include this list for several reasons, 
including the uncertainty regarding ultimate availability of funding, 
and the fact that states could not begin planning efforts for their 
State Expenditure Plans without the guidance from the Comprehensive 
Plan. For all of these reasons, the Council purposely deferred 
developing the Ten-Year Funding Strategy and FPL.
    I am pleased to report that earlier this month, the Council 
finalized a proposal submission and evaluation process to select 
projects for inclusion on a forthcoming FPL, which will be included as 
an addendum to the Initial Comprehensive Plan. This FPL addendum will 
contain projects and programs that will be funded with available 
Transocean Deepwater Inc. funds. Future amendments to this FPL and the 
process by which projects are selected for inclusion will evolve over 
time as new information becomes available, adaptive management 
activities occur, and as funding uncertainties are resolved. The 
Council anticipates that once the full amount ultimately to be paid 
into the Trust Fund is known, future amendments to the FPL will include 
significantly larger projects and project lists that reflect the full 
amount available to be spent for restoration activities.
    This approach will allow the Council to invest early in specific 
actions, projects and programs that can be carried out in the near-term 
with known funding to provide on-the-ground results while maintaining a 
focus on the long-term recovery of the Gulf Coast.
    The RESTORE Act outlines several requirements the Council must 
consider when selecting projects to fund, including that projects must 
utilize best available science, and that the Council prioritize 
projects that meet one or more of the four priority criteria outlined 
in the Act. This process will ensure that projects that receive funding 
meet the statutory requirements of the RESTORE Act, will have a 
positive impact on the natural resources of the Gulf, and will provide 
a level of transparency and assurance that projects were chosen using 
the application of consistent and objective criteria.
    The Council developed a rigorous proposal submission and evaluation 
process that:

  1.  Ensures that projects to be funded meet both statutory 
        requirements and commitments the Council made in the 
        Comprehensive Plan.

  2.  Provides for external scientific review of project proposals to 
        maintain objectivity and ensure that statutory requirements for 
        use of best available science are met.

  3.  Promotes project submissions that emphasize:

      a.  How a project is foundational in the sense that the project 
            forms the initial core steps in addressing a significant 
            ecosystem issue so that future projects can be tiered to 
            substantially increase the benefits;

      b.  How a project will be sustainable over time;

      c.  Why a project is likely to succeed; and

      d.  How a project benefits the human community where 
            implementation occurs.

  4.  Proposes a project focus area of Habitat and Water Quality for 
        the first addendum to the Plan to allow Council members to 
        submit for consideration projects that address common ecosystem 
        priorities and to find synergies among projects and across 
        jurisdictional boundaries.

  5.  Ensures that all applicable environmental compliance requirements 
        are addressed.

    While the Council will more formally discuss this process with the 
public in the coming weeks and months, this process was developed to 
ensure that projects comply with the requirements of the RESTORE Act. 
It also provides Council members the project-specific context they need 
to ensure that the activities chosen for funding can be expected to 
have a synergistic and significant positive impact.
    After projects are vetted, the Council will publish for public 
review and comment a Draft FPL, which will identify the projects and 
programs the Council intends to prioritize for funding. The Council 
will carefully review public comments, make any appropriate changes, 
and finalize the FPL. Once finalized, the FPL will serve as the basis 
for allocating funds currently available under the Comprehensive Plan 
Component through grants to the five Gulf Coast States and Interagency 
Agreements with Federal Agencies.
    The Council anticipates soliciting project submissions from its 
members in August 2014, with a draft FPL published in 2015.
Spill Impact Component
    While the Council will select and fund projects and programs to 
restore the ecosystem with Council-Selected Restoration Component 
funds, the Spill Impact Component funds will be invested in projects, 
programs, and activities identified in approved State Expenditure Plans 
(SEP). The RESTORE Act allocates 30 percent of the Trust Fund to the 
Gulf Coast States under a formula established by the Council by 
regulation and spent according to individual SEPs. Each Gulf Coast 
State will develop an SEP describing how it will disburse the amounts 
allocated under the Spill Impact Component. These projects, programs, 
and activities will be implemented through grants to the States in a 
manner that is consistent with the requirements of the RESTORE Act as 
well as the goals and objectives of the Comprehensive Plan.
    The RESTORE Act provides the scope of activities eligible for 
funding under the Spill Impact Component. As described in the Act, 
these activities can include:

  <bullet> Restoration and protection of the natural resources, 
        ecosystems, fisheries, marine and wildlife habitats, beaches, 
        and coastal wetlands of the Gulf Coast region.

  <bullet> Mitigation of damage to fish, wildlife, and natural 
        resources.

  <bullet> Implementation of a federally approved marine, coastal, or 
        comprehensive conservation management plan, including fisheries 
        monitoring.

  <bullet> Workforce development and job creation.

  <bullet> Improvements to or on State parks located in coastal areas 
        affected by the Deepwater Horizon oil spill.

  <bullet> Infrastructure projects benefitting the economy or ecosystem 
        resources, including port infrastructure.

  <bullet> Coastal flood protection and related infrastructure.

  <bullet> Planning assistance.

  <bullet> Administrative costs of complying with the Act.

  <bullet> Promotion of tourism in the Gulf Coast region, including 
        recreational fishing.

  <bullet> Promotion of the consumption of seafood harvested from the 
        Gulf Coast region.

    Once an SEP is approved by the Council, grants will be awarded to 
the State, in accordance with a formula developed by the Council as 
directed by the Act, for specific projects, programs, and activities 
identified in the SEP.\2\ Because the ultimate size of the Trust Fund 
is unknown at this time, a State may submit periodic addenda to its SEP 
in order to request additional disbursements.
---------------------------------------------------------------------------
    \2\ Council approval of a SEP is signified by the certification by 
a State member of the Council that the plan satisfies all requirements 
in (i) and (ii) of paragraph (3)(B), when joined with an affirmative 
vote of the Council Chair. 33 U.S.C. 1321(t)(2)(C)(vi)(III)
---------------------------------------------------------------------------
    The Council is developing a draft regulation for public comment 
which adheres to the structure of the Act. In recognition of the need 
to provide funding for planning and the development of SEPs, I am 
pleased to report that the Council plans to publish an Interim Final 
Rule this summer that will allow states to access funds for planning 
purposes. Concurrently, the Council will move forward with publishing a 
draft regulation that addresses the additional requirements for the 
Spill Impact Component, including the finalization of the impact 
allocation formula. These complex decisions take time and involve 
several levels of coordination at both the state and Council levels. 
The Council is committed to working collaboratively on these issues. We 
are confident that we are nearing resolution of any outstanding 
questions regarding the Impact Allocation Formula and will keep you 
apprised of the Council's progress.
    The publication of an Interim Final Rule to allow access to funding 
for planning will be particularly helpful to the State of Florida. The 
Council applauds Florida's Gulf Consortium on its progress in 
establishing a new public entity among Florida's 23 Gulf Coast Counties 
in order to draft Florida's SEP. The Council understands the importance 
of these funds to the Consortium's critical planning efforts.
Environmental Compliance and Effectiveness
    Projects and programs to be funded by the RESTORE Council will need 
to comply with a range of existing legal, regulatory, and policy 
requirements. Depending on the type of activity to be funded, the 
Council and its members may need to address laws such as the National 
Environmental Policy Act (NEPA), Clean Water Act, and Endangered 
Species Act, among others. The Council is currently developing policies 
and procedures to efficiently and effectively address these 
requirements.
    Pursuant to Council on Environmental Quality regulations, the 
Council is required to establish procedures for complying with NEPA. 
The Council is currently developing these NEPA procedures in a 
collaborative process, involving input from all Federal and state 
members. One of the overarching goals of the Council's procedures will 
be to ensure that NEPA and other potentially applicable regulatory 
requirements are addressed as expeditiously as possible. Among other 
efficiency practices, the Council's NEPA procedures will encourage 
robust interagency coordination and collaboration. The Council's NEPA 
procedures will also seek to avoid potential redundancy and 
inefficiency by encouraging concurrent and unified processes when 
addressing a range of regulatory requirements. The Council intends to 
publish its draft NEPA procedures for public review in 2014.
    The Council fully recognizes the public interest in expeditious 
implementation of Gulf ecosystem restoration projects and programs. 
Being comprised of state and Federal agencies, including those with 
jurisdiction over major environmental laws and regulations, the Council 
is in a unique and advantageous position with respect to interagency 
coordination and collaboration. The Council intends to leverage this 
broad membership with the goal of becoming a model of efficiency and 
interagency coordination on regulatory matters.
Coordination with Our Restoration Partners
    The Council will work to coordinate our restoration activities with 
those of our key partners. While the Council does not have direct 
involvement in the activities undertaken by the states or local 
governments through the Act's Direct Component, the Council will 
strive, as appropriate, to coordinate its work with those activities. 
In addition, the Council will actively coordinate with the Gulf Coast 
Ecosystem Restoration Science Program and the Centers of Excellence 
Research Grants Program.
    The Council recognizes that there are other partners critical to 
restoring and sustaining the health of the Gulf Coast region. The 
Council will coordinate with states, Federal agencies, tribes, and 
other entities working in the Gulf Coast region to achieve common 
goals, create regulatory efficiencies, and collectively work towards an 
integrated vision for comprehensive restoration. Additionally, the 
Council will coordinate with other intergovernmental bodies and Gulf 
Coast restoration initiatives to ensure that efforts are complementary 
and mutually beneficial.
    Specifically, the Council recognizes similar work resulting from 
the Deepwater Horizon oil spill undertaken by the Natural Resource 
Damage Assessment (NRDA) Trustees, the National Fish and Wildlife 
Foundation (NFWF), the National Academy of Sciences (NAS), and the 
North American Wetlands Conservation Fund (NAWCF). A brief overview of 
these efforts is provided below.

  <bullet> The Deepwater Horizon Natural Resource Damage Assessment 
        Trustees are assessing injury to natural resources and the 
        services they provide, as well as the lost use of such 
        resources, resulting from the Deepwater Horizon oil spill in 
        the Gulf and the Gulf Coast States. Damages for natural 
        resource injury will include the cost of restoring, 
        rehabilitating, replacing, or acquiring the equivalent of the 
        injured natural resources; the diminution in value of those 
        natural resources pending restoration; and the reasonable cost 
        of assessing those injuries as a result of the Deepwater 
        Horizon oil spill. The Trustees are using a public process to 
        select and implement restoration projects.

  <bullet> NFWF was established by Congress in 1984. NFWF will receive 
        over $2.5 billion throughout the next five years from the 
        Transocean (January 2013) and BP (November 2012) criminal plea 
        agreements with the United States. NFWF has stated that these 
        funds will be used ``to support projects that remedy harm to 
        natural resources (habitats, species) where there has been 
        injury to, or destruction of, loss of, or loss of use of those 
        resources resulting from the oil spill.''

  <bullet> The NAS received $500 million from the Transocean and BP 
        criminal plea agreements. These funds are to be used for human 
        health and environmental protection, including oil spill 
        prevention and response in the Gulf region.

  <bullet> The NAWCF received $100 million from the BP criminal plea 
        agreement for wetlands restoration, conservation, and projects 
        benefiting migratory birds.

    The Council will work with its partners to advance common goals, 
avoid duplication, and maximize the benefits to the Gulf Coast region.
Conclusion
    Four years after the unprecedented disaster in the Gulf, two years 
after passage of the RESTORE Act, and thanks to the leadership, 
foresight and cooperation of a bipartisan Congress, we are poised to 
chart a new future for the natural resources, economy and communities 
of the Gulf Coast region. The Council is committed to the success of 
this effort in the long-term; more than process, more than any 
individual project, this effort is about ensuring that the people and 
wildlife who call the Gulf home can continue to do so for generations 
to come. We take our charge to move forward quickly and responsibly 
very seriously. The Council appreciates this Committee's support of our 
early efforts and for the opportunity to share our progress with you.

    Senator Nelson. Thank you.
    Ms. Fisher, tell us about Mississippi.

 STATEMENT OF TRUDY D. FISHER, EXECUTIVE DIRECTOR, MISSISSIPPI 
              DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. Fisher. Yes, sir. Thank you, Mr. Chairman, and Senator 
Wicker, thank you for your opening comments. Good morning.
    My comments are going to be made in context to the 
testimony of the first two gentlemen and the rest of the 
esteemed panelists sitting here with me this morning. I want to 
take us back and kind of put things in context of where we were 
in April 2010. And no one at that time could have predicted the 
enormity of the Federal and State resources which would be 
devoted to response and restoration after the spill. I 
seriously doubt that any of us conceived then just how long and 
tedious the path ahead would be. While our Gulf residents are a 
hardy and resilient cohort, the largest manmade disaster in 
U.S. history, the spill, came as the region was still 
struggling to complete recovery from the largest natural 
disaster in U.S. history, Hurricane Katrina.
    Our experience in these early days of April 2010 taught us 
lessons which are as important today as they were then. First 
and foremost, virtually every endeavor since the spill occurred 
has been unprecedented, complex, and unique. The three 
restoration funding streams are no different. Now, I want to 
take a moment just to highlight these and the accomplishments 
to date.
    Natural Resource Damage Assessment process. That process 
weaves together the largest trustee council ever assembled 
after any oil spill since the passage of the Oil Pollution Act. 
It brings to the table five diverse states and four Federal 
agencies. NRDA also marks the very first use of the early 
restoration model where we got a down payment on injury to the 
Gulf. We stand poised to commit over $600 million to projects 
in the Gulf of Mexico. And this progress has been done, has 
been accomplished while the trustee council is shouldering the 
most complex natural resource damage assessment in history. 
Distinguished by its decided long-term injuries that are in 
nature, this assessment will create both policy and practice 
which has never existed before as we learn more about the 
important issues of long-term exposure, aggregate impacts, and 
synergistic effects. I fully believe that we will all look back 
at this time and it will reveal gains in scientific method far 
beyond what we could have imagined in 2010.
    RESTORE Act. With its passage 2 years after the spill, the 
RESTORE Act entered the restoration funding arena as a bold, 
new model for assuring that restoration would be Gulf-driven, 
that the tangible benefits would be visible on the ground in 
all five Gulf States. As a state representative, I view the 
RESTORE Act as an innovative Congressional statement on the 
importance of the five Gulf States in the thinking, the 
planning, and the doing which will result in restoring the 
Gulf. But it too is the first of its kind, bringing together 
five states and, in this case, six Federal agencies.
    As an independent Federal entity, there has been a lot of 
infrastructure work required to actualize the RESTORE Council. 
You have received a report on a lot of that work today. I am 
sure that every member of the Council and every member of our 
staff, just as you, wish we could move faster, and we wish we 
had projects to share with you today. That said, I often have 
to remind myself that we just have a small portion of the 
funding which is likely to come to the RESTORE Act through the 
Clean Water Act penalties.
    But we stand here before you today poised to pull the 
trigger, poised to pull the trigger on the release of RESTORE 
funding to projects and planning efforts. We are going to have 
to coordinate our efforts as a Council, continue to 
collaborate, and make decisions. We must press ourselves to 
come to closure on a number of decisions which are within our 
grasp. We have worked mightily as Federal and State 
partnerships to get to the base camp below the summit of 
RESTORE. If we do not redouble our efforts now and exert that 
last burst of energy to get us across the finish line, shame on 
us. As a State representative, I am comfortable that we have 
all worked hard to date and that our discussion has been a rich 
one. However, it is time to quit talking and start acting. Mr. 
Chairman, if we sit here before you again next year and we have 
not fielded suites of projects under all three RESTORE buckets, 
none of us should be satisfied and you should not be satisfied 
with us.
    As you, we remain anxious to see the final Treasury 
regulations which control all of the uses of the RESTORE 
dollars. We are energized and stand ready to allocate 
Mississippi's allotment under the RESTORE Act.
    Mr. Kelsch is going to be talking about the National Fish 
and Wildlife Foundation, but those monies have been launched 
with great gusto and is in its second round of annualized 
funding. In Mississippi, we are focusing--you talked about 
water quality and coastal streams and improving a habitat. We 
also received a $3.6 million grant from the National Fish and 
Wildlife Foundation, representing 1 percent of the total money 
that we will ultimately receive, to ensure that our National 
Fish and Wildlife funds are maximized.
    What we do in Mississippi and the other teams is leverage 
the dollars. How are we going to leverage RESTORE, the National 
Fish and Wildlife Foundation, and the NRDA process?
    And also, I would like to remind us, lest we forget, that 
the results that we have been talking about to get to where we 
are today have all been accomplished atop the backdrop of 
complex, multiple legal proceedings by the Federal Government 
and the Gulf States to hold one of the richest companies in the 
world accountable for its actions in the Gulf of Mexico.
    In the face of this panoply of historic factors, we have 
all had to learn to see things differently and to do things 
different. In Mississippi, our team coalesces around a duet of 
guiding principles in our work on restoration. It is really 
simple. Our watchwords are to get it right and to conduct 
business as unusual. Getting it right means taking the 
necessary time to consider and resolve important issues and 
questions, most of which have never been addressed before or 
have never been addressed on this scale. The energy we all 
share for tangible results--the energy in this room for 
tangible results must always be tempered with overriding goal 
of getting things right through a science-based, transparent, 
collaborative approach. ``Right'' in this context means 
decisions based on the law, based on science, and made in the 
full context of the concerns and expectations of our public, 
our NGO's, our tribes, and our local and State elected and 
appointed officials.
    Senator Nelson. Ms. Fisher, I need you to wrap up.
    Ms. Fisher. Yes, sir.
    In summary, are we as far along as we wish we were in the 
RESTORE process? Absolutely not. But we are proud of the 
hundreds of millions of dollars in projects which are either 
directly on the ground or are targeted for over the next 5 
years through two of the funding streams. We understand the 
Gulf of Mexico and its sensitive ecosystem better than we ever 
have. We understand each other on the RESTORE Council and the 
other councils better than we ever have, having spent literally 
thousands of hours together working together. We are confident 
that prompt execution of the RESTORE Council's near decisional 
agenda is going to result in a flow of projects to the Gulf.
    I thank you, Mr. Chairman, for this hearing and for the 
hearing we had last year. Yours and the Committee's active 
involvement is a powerful meter of accountability to the 
RESTORE Council and for the work that is going on in the Gulf 
of Mexico. Your continued inquiry is one of our most powerful 
tools in ensuring that we harvest all that you intended through 
the RESTORE Act.
    Thank you, sir.
    [The prepared statement of Ms. Fisher follows:]

      Prepared Statement of Trudy D. Fisher, Executive Director, 
            Mississippi Department of Environmental Quality
    Good morning Senators Nelson and Wicker, and members of the 
Committee. Thank you for the opportunity to testify on behalf of the 
State of Mississippi on environmental restoration following the 2010 
Deepwater Horizon oil spill and the progress and challenges in 
implementing the Resources and Ecosystems Sustainability, Tourist 
Opportunities, and Revived Economies of the Gulf Coast Act of 2012 
(RESTORE Act).
    My name is Trudy D. Fisher and I have served as the Executive 
Director of the Mississippi Department of Environmental Quality for 
over seven years. Our agency is responsible for state environmental 
programs as well as most of the Federal environmental programs 
delegated to the states by the Environmental Protection Agency. In 
addition, MDEQ serves as a ``first responder'' for man-made and natural 
disasters. As Executive Director, I serve as Mississippi's Trustee 
under the Oil Pollution Act. Our emergency response to the Deepwater 
Horizon oil spill and responsibilities as a Trustee and Trustee agency 
began very shortly after April 20, 2010. Since that time, I have been 
actively engaged in the Natural Resources Damages Assessment (NRDA) 
process on behalf of the State, through the NRDA Deepwater Horizon 
Trustee Council comprised of the five Gulf states and the four Federal 
trustees. I also serve as Governor Phil Bryant's designee on the 
RESTORE Council and MDEQ is the lead agency for coordination of monies 
flowing through court decrees, including the sums administered by the 
National Fish and Wildlife Foundation's (NFWF) Gulf Environmental 
Benefit Fund.
    My comments are in context to the other thoughtful perspectives you 
will hear today as you have assembled stakeholders from around the 
table we all share in restoring the Gulf. The Restore Council's 
Executive Director, Justin Ehrenworth and Deputy Secretary of Commerce 
Bruce Andrews have both spoken to the structure work which has occurred 
since your last briefing as well as the map for near term progress on 
RESTORE. Rather, I will focus on Mississippi's perspective on the 
overall journey to Gulf restoration across the multiple funding lanes 
which have materialized since the spill. I will also speak directly to 
some of the challenges we have faced as well as the significant 
progress I believe we have made and the gains I see in our near future.
    In April 2010, no one could have predicted the enormity of Federal 
and state resources which would be devoted to response and restoration 
after the spill. I seriously doubt that any of us conceived then how 
long and tedious the path ahead would be. While Gulf residents are a 
hearty and resilient cohort, the largest manmade disaster in U.S. 
history, the spill, came as the region was still struggling to complete 
recovery from the largest natural disaster in U.S. history, Hurricane 
Katrina.
    Our experience in the early days after the spill taught us lessons 
which are as important today as they were then. First and foremost, 
virtually every endeavor since the spill has been unprecedented, 
complex, and unique. The three restoration funding streams are no 
different. I will take a moment to highlight each.
    NRDA weaves together the largest Trustee Council ever assembled 
after an oil spill, bringing to one table five diverse states and four 
Federal agencies. NRDA also marks the first use of the ``early 
restoration'' model, whereby the NRDA Trustee Council has managed to 
commit over $600 million to projects while at the same time shouldering 
the most complex natural resource damage assessment in history. 
Distinguished by its decided long term injury nature, this assessment 
will create both policy and practice which has never existed before as 
we learn more about the important issues of long term exposure, 
aggregate impacts, and synergistic effects. I fully believe that we 
will all look back at this time and it will reveal gains in scientific 
method far beyond what we could have imagined in 2010.
    In the case of Mississippi, we have secured (or will soon secure) 
over $60 million in early restoration projects and are on course to 
securing additional projects should exhaust close to our state's full 
share of early restoration. Those projects include artificial reed 
enhancement, oyster reef restoration, projects to restore human use 
losses and other projects designed to restore habitat. Each of these 
projects is wholly ecological in purpose.
    With its passage two years post spill, the RESTORE Act entered the 
restoration funding arena as a bold new model for assuring that 
restoration would be Gulf driven and that the tangible benefits would 
be visible on the ground in all five Gulf states. As a state 
representative, I view the RESTORE Act as an innovative Congressional 
statement on the importance of the five Gulf states in the thinking, 
planning, and actions which will restore the Gulf. But, it too is the 
first of its kind, bringing together five states and six Federal 
agencies. As an independent Federal entity, there has been much 
infrastructure work required to actualize RESTORE. You have received a 
report on that work today and I will not recount the numerous steps 
which have been taken. I am sure that every member of the Council and 
every member of our staff wish we could move faster and wish we had 
projects to share with you today. That said, I often have to remind 
myself that we presently have only a small portion of the funding which 
is likely to come through a final future resolution of the Clean Water 
Act penalties which fuel RESTORE.
    We come before you today poised to pull the trigger on the release 
of RESTORE funding to projects and planning efforts. We are going to 
have to coordinate our efforts as a Council, collaborate and make 
decisions. We must press ourselves to come to closure on a number of 
decisions which are within our grasp. We have worked mightily as a 
federal/state partnership to get to the base camp below the summit of 
RESTORE. If we don't redouble our efforts now and exert that last burst 
of energy, shame on us. As a state representative, I am comfortable 
that we have all worked hard to date and that our discussion has been a 
rich one. However, it is time to quit talking and start acting. If we 
sit here before you again next year and we have not fielded suites of 
projects under all three RESTORE buckets, none of us should be 
satisfied. And you should not be satisfied with us.
    We remain anxious to see the final Treasury regulations which 
control all of the uses of RESTORE dollars. We are energized and eager 
to apply for RESTORE funds out of the shared portion of funds and we 
are poised to thoughtfully spend Mississippi's allotment from both the 
direct component and the Oil Spill Allocation Fund. The potential 
release of planning dollars through the interim final rule described by 
other witnesses today will be vital to all five states in charting a 
comprehensive map for maximum use of the RESTORE dollars.
    Mississippi has also made great strides in the use of funds 
directed to the states as a part of the consent decree which resolved 
criminal charges against BP and Transocean. The Gulf Environmental 
Benefit Fund, created by NFWF to administer over $2 billion to the 
states over a five year period has launched with great gusto and is in 
its second round of annualized funding. Mississippi has used funding to 
date to improve streams in all three of our coastal counties, provide 
improved habitat for birds in more than twenty locations, and to 
restore and improve the State of Mississippi's system of Coastal 
preserves. Our state is excited about the projected announcement of 
Round Two projects later this year and we expect to field a robust 
suite of restoration activities from that round. We also recently 
received a $3.6 million grant from NFWF (approximately one percent of 
the overall NFWF dollars allocated to Mississippi) to create an 
integrated, coast wide, restoration plan that will guide the path 
forward for using the balance of our state's $356 million share of NFWF 
funds.
    Lest any of us forget, results since 2010 have all been 
accomplished atop the backdrop of complex multiple legal proceedings by 
the Federal Government and the states to hold one of the world's 
richest companies accountable for their actions in the Gulf of Mexico.
    In the face of this panoply of historic factors, we have all had to 
learn to see things differently and to do different things. In 
Mississippi, our team has coalesced around a duet of guiding principles 
in our work on restoration. Though profoundly simple, our watchwords 
are to ``get it right'' and to conduct ``business as unusual''. Getting 
it right means taking the necessary time to consider and resolve 
important issues and questions, most of which have never been addressed 
before or have never been addressed in an effort of this scale. The 
energy we all share for tangible results must be tempered with the 
overriding goal of ``getting things right'' through a science based, 
transparent, collaborative approach. ``Right'' in this context means 
decisions based on the law, based on science, and made in the full 
context of the concerns and expectations of our public, NGOs, Tribes, 
state and Federal elected and appointed officials.
    A second compelling component in getting this effort right is our 
willingness to adopt a ``business as unusual'' business model. We must 
be prepared to make expedited decisions to make progress. As one of our 
Federal partners has observed in many of our meetings, ``we cannot 
afford to let great be the enemy of good.'' While many of the questions 
which face us in this effort are unique and of first impression, we 
must wrestle with them, apply our best thinking, and move forward. 
While all of our decisions must be based upon law and best available 
science, we must find practical answers to the questions of 
restoration, make decisions, and move forward. As we say on the 
Mississippi team, we have to remember to play offense in every setting. 
We cannot afford to focus on undue effort to over define the challenges 
or to become trapped in negative thinking or ``getting to no'' in our 
decision making. Every member of our team is expected to bring his or 
her best game to the table every day. Our citizens rightly expect this 
level of commitment and hard work and we will not deliver the results 
each of you envisioned from the RESTORE act without this mindset.
    We only have one chance to get this right and those of us 
privileged to represent our fellow citizens in this effort bear a 
fiduciary duty to those back at home to turn our discussions into 
projects. Coordination and collaboration among the Gulf states and 
Federal agencies are essential to any degree of success we have, as is 
the will to seek solutions which serve our common good. Through both 
the NRDA process and the RESTORE Council, strong bonds of shared 
understanding and effort have been formed and strengthened. Many of us 
have spent literally thousands of hours together in the last four 
years. I cannot overestimate the importance of this shared experience. 
It has fostered greater understanding across geopolitical boundaries, 
promoted a more holistic view of the Gulf, and created an 
interdependent path to restoration. Like all joint endeavors, things 
work best when everyone has common goals and objectives. The biggest 
challenges arise when a member state or Federal agency acts out of a 
singular interest rather than the common interest, or strays from or 
stretches basic reading of Federal law. We cannot afford to distract 
our focus or risk the good of the whole by self-serving actions. And 
when we must disagree with one another, it must be done in a way which 
does risk damage to long term collaboration.
    In summary, are we as far along as we wish we were in the RESTORE 
process? Absolutely not. But, we are proud of the hundreds of millions 
of dollars in projects which are either already on the ground in 
Mississippi or are targeted there over the next five years through NRDA 
and NFWF funds. We understand the Gulf and its sensitive ecosystem 
better than we ever have. We understand our stakeholders' needs and 
concerns better than we ever have before. And we understand one another 
better. We are confident that prompt execution of the RESTORE Council's 
near term decisional agenda will result in the flow of projects to the 
five Gulf states.
    Thank you again, Mr. Chairman and Members of the Committee, for 
continuing to focus on the RESTORE Act and its implementation. Your 
active involvement acts as a powerful meter of accountability for all 
of us who do the day to day work to give full impact to this important 
law. Your continued inquiry is one of our most powerful tools in 
assuring that we harvest all that was intended by the Act. I would also 
like to thank Senator Wicker and his staff for their continued 
perseverance in restoration of the Mississippi Gulf. I know that he 
feels, as I do, that the work we accomplish in this effort is legacy 
work, which, if we are tenacious and thoughtful, will live long after 
all of us are gone.
    I greatly appreciate the opportunity to discuss MDEQ's role in the 
Gulf of Mexico and our Gulf Coast restoration. I appreciate the 
Committee's time and attention, welcome any questions, and look forward 
to working with you further on this important effort.

    Senator Nelson. Thank you.
    Ms. Drew, tell us about your work on the Council.

          STATEMENT OF MIMI A. DREW, FORMER SECRETARY,

        FLORIDA DEPARTMENT OF ENVIRONMENTAL PROTECTION;

       AND FLORIDA GOVERNOR RICK SCOTT'S DESIGNEE TO THE

            GULF COAST ECOSYSTEM RESTORATION COUNCIL

    Ms. Drew. Good morning. Senator Nelson, Senator Wicker, 
thank you very much for having this opportunity to talk to you 
today.
    I represent Governor Rick Scott on the Gulf Coast Ecosystem 
Restoration Council, we call the ``Council.'' I am pleased to 
be here and I have been working on this for the last 4 years. 
Like my friend, Ms. Fisher, and several others of us, we have 
been working on it since the oil spill actually happened.
    I am a Florida native. I have invested 30-plus years in 
environmental protection in various careers, and I happened to 
be serving for the Florida DEP as the Deputy Secretary when the 
Deepwater Horizon disaster occurred and spent a lot of time 
during that time following up with the issues that had to be 
dealt with across the state. I also was promoted to the 
Secretary position and at that point retired from State 
government. However, I am now back as a special advisor to 
Secretary of DEP Herschel Vinyard and I represent the state on 
all issues related to the Deepwater Horizon.
    As you can imagine, coming from my long-term service and 
love for the State of Florida, it was with dismay that I 
watched the spill. I worked in command centers across the Gulf 
during the spill, as well as the Florida Emergency Operations 
Center, and we held our breath as we watched the oil spread 
slowly toward Florida's beaches and marshlands. It is 
gratifying, after living through those long months, to see that 
restoration efforts are now beginning to take shape.
    You invited us here today to discuss the successes and 
challenges specifically to date in implementing the RESTORE 
Act. I am not going to repeat which you will have already heard 
from several others today, but I do want to spend some time 
talking specifically about challenges.
    So Florida is unique among the Gulf States. As we already 
heard this morning from Senator Nelson, our economy is really 
driven by tourism and a healthy environment is paramount to a 
good economy in Florida. We are known as the fishing capital of 
the world. Recreational and commercial fishing bring in 
millions and billions of dollars, hundreds of thousands of 
jobs. More than 95 million people visit Florida each year, all 
expecting a clean and healthy environment to swim, fish, boat, 
or simply enjoy the gorgeous beaches and waterways.
    The explosion of the Deepwater Horizon was devastating to 
the tourist economy that summer, and we all watched closely for 
87 days until the well was capped. As you know, we still are 
having tar balls and tar mats in Florida. So it is a continuing 
issue for us.
    One overarching issue and challenge for us has been the 
amount of time between the spill and achievement of meaningful 
restoration. We have an early partial settlement from BP under 
NRDA, National Resource Damage Assessment of the Oil Pollution 
Act, but even that has taken a while to get money out the door 
for those projects. I am pleased to say that in Florida, we 
will have about $100 million worth of projects this year ready 
to go on the ground from that fund, but it has been a long, 
slow process.
    I would like to move now to the specific challenges and 
areas within the Act. In Florida, the direct funding component, 
or Bucket 1, flows directly from the Treasury Department to the 
individual counties. We at the state level will not be actively 
involved in that process, but we have reached out to the 
counties to try to ensure that projects that are done at that 
level clearly meet the stated goals of the Act and work 
collaboratively with the other parts of the Act that the state 
will have an involvement with.
    I believe that you are going to hear more from Commissioner 
Robinson today, but one of the biggest issues there has been 
funding to develop planning for Bucket 1.
    I am going to address Bucket 2 now, which really I think 
you all have heard a lot about this morning. But the biggest 
issue again has been lack of ability to have funding for 
planning. We have all had meetings over the last couple of 
years and tried hard to get--we got the interim plan out. We 
now have a path forward for funding. We are hopeful to see a 
funded priorities list very soon. All of that, of course, is 
contingent on the Treasury regs becoming final, and we are all 
hopeful to see that happening very soon.
    Bucket 3, or the spill component. Again, this issue is--we 
have been confounded a little bit by lack of planning funds. 
Bucket 3 is to be administered by the Florida Gulf Consortium, 
and they are to develop the State expenditure plan, which is 
then approved by the Governor and submitted to the Council. We 
are hopeful that with announcement of the interim final 
regulation, we will be able to see planning funds go to the 
counties to develop that plan.
    So I am going to move to the successes now because we have 
had a few successes. So I think the Council has been able to 
come together with the interim final plan, which really set a 
path forward for us. We landed on a good, robust process for 
beginning to develop the programs and projects for Bucket 2. We 
have agreed to two focus areas for Bucket 2 to help everyone 
get started, and those are water quality and habitat 
restoration. We have identified a way to get planning funds 
available, once the Treasury regulations are final.
    And there is one area of success that is a little more 
subtle, and I would just like to take a moment to highlight 
that. We have been successful in knitting together a diverse 
group of agencies, personalities, and agendas in the RESTORE 
Council itself. Those of you who work in Congress are no 
strangers to the skills it takes to bring together a diverse 
group and end up with an outcome that is satisfactory to all. 
We are facing the same type of challenges. We have come a long 
way toward identifying unifying goals.
    I am pleased to be here today to have the opportunity to 
talk about that, and I am happy to answer any questions. And we 
look forward to reporting back to you once we have some 
additional things to say. Thank you very much.
    [The prepared statement of Ms. Drew follows:]

     Prepared Statement of Mimi A. Drew, Former Secretary, Florida 
   Department of Environmental Protection; and Florida Governor Rick 
    Scott's Designee to the Gulf Coast Ecosystem Restoration Council
Introduction
    Good morning Chairman Nelson, Ranking Member Rubio, and Members of 
the Committee. My name is Mimi Drew, and I represent Governor Rick 
Scott on the Gulf Coast Ecosystem Restoration Council (Council). I am 
pleased to be here today, representing the state of Florida. As a 
Florida native, I have invested 30 + years working to protect and 
restore natural resources in Florida for the use of our citizens and 
many visitors who come to the state every year. During my career, I 
held several positions within state government related to environmental 
protection. I was serving as Deputy Secretary of the Florida Department 
of Environmental Protection (FDEP) when the Deepwater Horizon Oil Spill 
(the Spill) occurred. During the Spill, I was promoted to the position 
of Secretary of FDEP, and remained with the department until my 
retirement from the state in 2011. Following that, I was asked to stay 
on as a Special Advisor to the state to ensure continuity with all the 
Deepwater Horizon activities that continue to this day. I am currently 
representing Florida's interests in the multiple environmental 
restoration efforts that have developed since the Spill. In addition to 
serving on the Council, I am also Florida Department of Environmental 
Protection Secretary Herschel T. Vinyard Jr.'s representative on the 
Deepwater Horizon Trustee Council, and I work closely with the National 
Fish and Wildlife Foundation (NFWF) to ensure Florida's interests and 
priorities are well represented. Prior to that, I sat on the Gulf Coast 
Ecosystem Restoration Task Force, predecessor to the Council.
    As you can imagine, coming from my long term service and love for 
the State of Florida, it was with dismay that I watched the Spill. I 
worked in several command centers across the Gulf during the Spill, as 
well as Florida's Emergency Operations Center, and held my breath along 
with everyone else as we watched the oil spread slowly toward Florida's 
beaches and marshlands. It is gratifying after living through those 
long months to see that several restoration efforts are now beginning 
to take shape.
    You invited us here today to discuss the successes and challenges 
to date in implementing the Resources and Ecosystems Sustainability, 
Tourist Opportunities, and Revived Economies of the Gulf Coast States 
Act of 2012 (RESTORE Act). I am not going to repeat what you will have 
already heard from Justin Ehrenwerth, Executive Director of the 
Council. He speaks for all of us on the Council with his summary of 
activities and status report.
    What I would like to do is to report more specifically on issues 
around the RESTORE Act that affect Florida, and how we have worked to 
address them. I would also like to briefly mention the other 
restoration funding streams and let you know how we are coordinating 
within the state to ensure that Florida ends up with the most efficient 
and effective projects with those funds.
Challenges
    Those of us who live and work around the Gulf of Mexico are aware 
of its unique ecosystems and natural resources. Each of the five Gulf 
States, ranging from Florida to Texas, relies on the Gulf for 
recreation, business, and simple aesthetic appreciation. Florida has 
been nicknamed the ``Fishing Capital of the World.'' Recent data 
indicates that Florida Gulf recreational fishing generated more than 
$13.1 billion in sales and created just over 109,000 jobs while 
commercial fishing generated $16.6 billion in sales and created more 
than 82,000 jobs.\1\ Nearly 95 million people visit Florida each year, 
drawn to our sugar sand beaches along the Gulf; providing a huge 
economic boom to businesses that support those visits. People who are 
fortunate enough to live close to the Gulf enjoy simple and inexpensive 
opportunities to fish, swim, kayak, bird watch, or just soak up the sun 
and views. All of these activities that we take for granted were 
threatened on April 20, 2010, with the explosion of the Deepwater 
Horizon. First, the loss of eleven lives from the explosion saddened 
everyone. Then, the constant broadcasting on television stations around 
the world of the oil spewing from the bottom of the Gulf kept everyone 
worried for 87 long days before the final cap was placed on July 15, 
2010.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service. 2014. Fisheries Economics of 
the United States, 2012. U.S. Department Commerce NOAA Tech. Memo NMFS-
F/SPO-137.
---------------------------------------------------------------------------
    The result in Florida was that many people who normally would have 
vacationed during that summer changed their plans. I won't spend much 
more time on this, because the history is available in the multiple 
reports that have been issued. However, it is important to understand 
how Florida was uniquely damaged by the Spill. In Florida, a clean 
environment is crucial to a healthy economy. When that is threatened, 
the economy and the families who live here all suffer.
    Part of our challenge in recovering from the Spill is being able to 
leverage available funding streams that will address restoration. The 
initial funding stream, called ``Early Restoration'', grew out of a 
partial interim settlement that the Deepwater Horizon Natural Resource 
Trustees reached with BP three years ago which basically provides a 
down payment against BP's ultimate liability, which will be determined 
by the Natural Resource Damage Assessment (NRDA) under the Oil 
Pollution Act of 1990. That agreement is for $1 billion to be made 
available to affected State and Federal Trustees to restore proven 
injury, and Florida's allocation is $100 million plus some portion of 
$300 million to be shared among the states at the direction of the 
Federal Trustees. Because this is a partial interim settlement and the 
first of its kind, the process has taken a good deal of time to 
implement as all the Early Restoration projects require full Trustee 
approval as well as agreement with BP that the project offsets a known 
injury. We are now close to being able to have committed $100 million 
for projects in Florida, and the result will be the implementation of 
many good projects to deal with some of the injured natural resources, 
as well as the loss of recreational use, which occurred as a result of 
the Spill.
    The focus of the NRDA projects has been to offset currently known 
injury. The beauty of the RESTORE funding is that it is broader in 
nature and can be used to improve the health of the Gulf in general. 
Therefore, we see this as an opportunity to expand and enhance the type 
of projects that we haven't been able to fund through NRDA.
    One of our largest, and I would say, overarching challenges across 
all programs has been the amount of time between the Spill and 
achieving meaningful restoration. Although everyone involved has worked 
diligently to implement the various programs and funding streams, it 
has seemed to the watching public that we haven't been expeditious. In 
response to this criticism, it's important to note that this was the 
largest environmental disaster ever to occur in the United States. It 
involves five states, and at least four Federal agencies. By its 
nature, it is complicated and the rules are difficult to understand. 
Managing expectations has been very difficult, as the general public as 
well as people outside the immediate circle of the councils and 
committees become more frustrated with the pace of restoration.
    I don't have a solution for this. Working on the inside of this 
issue, I can tell you it is not from lack of trying that our groups 
aren't able to move more nimbly. It is however a challenge and perhaps 
history will suggest that there could be changes in laws or rules that 
might permit a more rapid approach to restoration. One thing I will 
note here: had we not reached an early partial settlement with BP on 
the NRDA side, we would have no restoration projects at all as the 
litigation continues to work its way through court.
Direct Funding Component
    Under the RESTORE Act, the flow of funding is structured 
differently for Florida when compared to the other Gulf Coast states. 
For the Direct Funding Component, or Bucket 1 as it is commonly called, 
funding in Florida flows directly to the individual 23 Gulf Coast 
Counties (Counties). The RESTORE Act directs that 75 percent of the 
available funds will be distributed among the eight most western Gulf 
Coast counties (Escambia through Wakulla) with the remaining 25 percent 
being distributed among the remaining fifteen Gulf Coast counties 
(Jefferson through Monroe). Once the Department of Treasury (Treasury) 
Regulations are finalized, the individual Counties can access these 
funds directly from the Treasury. The funds will be released once the 
Counties have met the conditions outlined in the RESTORE Act, which 
include submitting a multiyear implementation plan to the Treasury. 
Once Transocean makes its final payment, there will be $56,000,000 
available for distribution among the Counties.
    The challenge here is to make sure by working with the Counties 
that projects within Bucket 1 are coordinated with other funding 
streams, and if possible, achieve some measure of leveraging to get the 
best possible projects across the Gulf. And of course, as I'm sure you 
will hear from the County representative later, part of their challenge 
has been to start planning for these projects without funding, which 
will not be available until the Treasury Regulations are finalized.
Comprehensive Plan Component
    Florida has unique ecosystems, and has a long history of 
environmental protection measures to ensure they flourish. Florida's 
Gulf of Mexico coastline includes 23 counties, and ranges from Escambia 
County to Monroe County. Each of the counties has a different set of 
restoration priorities. In the Panhandle, which includes eight counties 
from Escambia to Wakulla, population is fairly low, and intense 
development is limited to several large cities. There still remains a 
great deal of natural landscape along the Gulf in these counties. 
Further south, toward Hillsborough County, the population increases and 
the urban impacts on the Gulf also increase. Of course, Monroe County 
which includes the Florida Keys, is the only tropical coral reef in the 
United States, and has its own set of challenges.
    Because there was no available funding to the Council to develop 
the Initial Comprehensive Plan (Plan), all the members were challenged 
to be able to provide staff and funding to develop and publish the 
Plan. This is not news to this Committee, as the issue of funding 
availability is one that runs through all portions of the RESTORE Act 
implementation. Aside from the funding challenge, one of the biggest 
challenges to us in developing projects for the Funded Priority List 
(FPL), which is part of the Plan, is to reflect the different 
ecosystems as well as socioeconomic situations which range along the 
Gulf. The one unifying factor for us is that the Council just recently 
reached agreement on two goals to focus on in the initial FPL, which 
are identified in the testimony from Justin Ehrenwerth. These stated 
goals of water quality restoration and protection, and habitat 
conservation and protection are two that rise to the top of Florida's 
priorities. For years, Florida has been a leader in both of these areas 
through our continued programs for water quality protection. Most 
recently, we became one of the few states to adopt numeric water 
quality standards, which will go a long way toward enhanced water 
quality protection. Florida Department of Environmental Protection 
Secretary, Herschel T. Vinyard Jr., has repeatedly taken the position 
that water quality protection is his highest priority, and therefore 
the decision by the Council to emphasize this goal is welcome to 
Florida.
    In terms of habitat restoration, Florida has a long history of 
successful habitat restoration across the state. Land acquisition has 
been a large part of that, and over the years, Florida has acquired 
more land than any other state or Federal entity. But that's not the 
whole picture. Within Florida State Parks, for example, there is a very 
active program for habitat restoration and conservation. The Florida 
Fish and Wildlife Commission also has an active habitat restoration and 
management program on lands that they oversee and manage; and the state 
agencies work closely with interested local governments to extend that 
ethic. Additionally, the state works closely with interested private 
landowners to protect and restore habitat on private lands. We look 
forward to translating these focus areas into meaningful projects for 
Florida's portion of the projects and programs funded under the 
Comprehensive Plan.
Spill Impact Component
    Again, the RESTORE Act sets out a different process in Florida for 
developing projects under this component, or Bucket 3 as it is often 
called. The Florida Gulf Consortium (Consortium) is identified as being 
responsible for developing the State Expenditure Plan, which is then to 
be approved by the Governor and submitted to the Council for approval. 
The Consortium has been hampered in this effort by lack of funds, and 
you will hear later on your agenda today what they have done so far to 
begin implementation of this component.
    I'd like to focus today on specific challenges that have come up to 
ensure that there is active collaboration and cooperation among the 
state and local entities responsible for this funding stream. 
Recognizing that it is imperative that all the processes necessary to 
develop, finalize and receive approval of the State Expenditure Plan 
are streamlined and efficient, the Governor's office developed a 
Memorandum of Understanding with the Consortium, which was signed on 
June 12, 2013. We have been working actively with the Consortium since 
passage of the RESTORE Act to ensure that we have a transparent and 
collaborative process for approval of the State Expenditure Plan. As 
Florida's representative on the Council, I have consistently encouraged 
the Council to provide a funding mechanism for the Consortium (as well 
as other states) to receive a planning grant for this component. I am 
now pleased to say that once the Treasury Regulations are finalized, 
the Council is poised to issue an Interim Final Regulation which will 
allow the Consortium to apply for up to 5 percent of the funds that 
will ultimately be available in this component such that they can be 
used for development of the State Expenditure Plan. Therefore, the 
Consortium will be able to begin the planning effort even while the 
Council continues to develop the final rule for the Spill Impact 
Component.
Success to Date
    Although it has been somewhat of a long road to get RESTORE 
activities off the ground and running, I am optimistic that we have 
tackled and solved some of our larger administrative issues, and are 
making good progress on some of the thornier technical issues. The 
Council's recent agreement to use the existing funds in the trust fund 
for the Comprehensive Plan Component to focus efforts across the Gulf 
on water quality and habitat restoration gives us a good map to begin 
proposing projects and programs to fit that model. In Florida, we will 
be using our watershed protection approach to think about ways to 
enhance whole ecosystems when we propose ideas for this component. We 
believe that water quality improvement and protection is vital to 
enhancing and restoring habitat, so these focus areas go hand in hand. 
The water quality needs in Florida are huge. EPA's report to Congress 
in 2008, called the Clean Watersheds Needs Survey, suggests that 
Florida's stormwater needs are $2.5 billion. This was six years ago, so 
I imagine that number has increased substantially. Nonpoint sources and 
stormwater are the biggest threats to water quality in Florida, so 
being able to develop projects which address these needs is very 
important to us.
    Another success relates to our ability to identify a way to get 
planning funds to the Consortium shortly after the Treasury Regulations 
are finalized. As mentioned above, this will be a major part in our 
ability to create a thoughtful, long term State Expenditure Plan.
    And finally, although more difficult to quantify, we have been 
successful in knitting together a diverse group of agencies, 
personalities and agendas in the RESTORE Council itself. Those of you 
who work in Congress are no strangers to the skills needed to bring 
together a diverse group and reach an outcome that is satisfactory to 
all. We are facing the same type of challenges, and have come a long 
way toward identifying unifying goals. Each of the members brings a 
different set of interests and priorities to the table. Luckily for 
some of us, membership is the same for most of the committees and 
councils that are addressing Gulf restoration, so there are familiar 
faces. Some of us have worked together since we rolled up our sleeves 
during the Spill and walked the beaches looking for oil. This has 
helped us come together as a Council and we are making good progress in 
that area. For us to succeed, we have to share some common 
characteristics: Patience, as the wheels of bureaucracy move slowly; 
collaboration, as it takes all of us to reach agreement on a path 
forward; dedication, because this is hard work; listening skills, 
because everyone has a slightly different story to tell; and 
recognition of the value of science, because we all want these projects 
and programs to be a sustainable success.
Conclusion
    In ending my testimony, I would like to thank you all for taking 
the time out of your schedules to ask these very important questions. 
As Florida moves ahead to knit together restoration plans, programs and 
projects, we will be working with a large audience of interested 
parties, including local governments, nonprofit organizations, and of 
course just regular citizens. We have a robust outreach program, an 
active website which we keep updated (www.deepwaterhorizonflorida.com) 
and a long history of providing information to the public in meetings 
or by other mechanisms. We are working closely with our other Gulf 
State and Federal partners on the NRDA funding. We have established a 
good relationship with the NFWF on a series of great restoration 
projects for fisheries enhancement, water quality, and wildlife habitat 
and restoration which will be funded out of the criminal settlements. 
We expect to keep working with the NFWF in the coming months, and they 
have assured us that it is their intent to reflect the states' 
interests in restoration and help us to leverage all available funding 
streams for restoration. It is our sincere intent to continue to engage 
fully in all Gulf restoration efforts with the goal in mind of making 
the best use of available funds to harmonize the various funding 
streams and make good decisions about how best to apply available 
funds.
    I look forward to keeping you apprised as we continue to work 
through our challenges, and hope to be able to report on many successes 
in the future.

    Senator Nelson. Thank you.
    Commissioner Robinson?

            STATEMENT OF HON. GROVER C. ROBINSON IV,

           COMMISSIONER, DISTRICT 4, ESCAMBIA COUNTY;

          PRESIDENT, FLORIDA ASSOCIATION OF COUNTIES;

          AND CHAIRMAN, FLORIDA GULF COAST CONSORTIUM

    Mr. Robinson. Mr. Chairman and also Ranking Member Senator 
Rubio from the State of Florida, I appreciate the opportunity 
to be here today to speak to you.
    I am here today to talk on behalf of local governments but 
also the Florida Gulf Consortium that was established by this 
Act which represents 23 coastal counties along Florida.
    First, I greatly appreciate the wisdom of this body in 
insisting that local governments be involved in this process, 
especially within the State of Florida. The direct component 
will flow funds directly to these individual counties. In 
addition, component 3 that deals with the oil spill impact fund 
will also be directing funds to counties in the state 
partnership as well that was created by this Act.
    I do want to say for the purposes of the spill impact 
formula in Florida, the 23 impacted local governments created a 
formal entity known as the Gulf Consortium to write the state 
expenditure plan and engage the public. In addition, the 
individual counties are also engaging the public. These groups 
are hearing from subject-matter experts not only with regard to 
environmental restoration initiatives, but also potential 
projects to bolster economic recovery across the region. Both 
goals, environmental and economic restoration, remain essential 
to developing and implementing the plans required by the Act 
and the forthcoming Treasury rules.
    That said, while all of us are excited by the many 
opportunities these projects will provide, the critical aspect 
at this moment exists with the required development of the 
numerous plans that must serve as road maps for the pursuit of 
appropriate projects for restoration.
    Every stakeholder understands the more significant fines 
and, thereby, funds will come from the outcome of the ongoing 
litigation with British Petroleum. However, each of us has been 
granted an immediate opportunity with the Transocean 
settlement. This $1 billion settlement requires a deposit of 
$800 million into the Gulf Coast Restoration Trust Fund and 
thus opens real opportunities for planning to begin quickly and 
coordination amongst the different planning bodies to occur. It 
is this planning that must be done to provide a positive and 
necessary direction for the expenditure of funds to ensure both 
environmental and economic restoration.
    Recently I had the opportunity to visit with Senator Nelson 
in Orlando, and I gave him the following Gulf Coast analogy. I 
told him the Senate and the U.S. Congress had provided us in 
the region with a great gift. To use a Gulf Coast metaphor, we 
have essentially been handed an oyster. However, at this 
particular time we have no tool to open the shell. We have no 
shucking knife, which is the planning dollars, meaning we are 
unable to really access this wonderful gift that has been 
presented to us for the restoration of the Gulf of Mexico. 
Therefore, the essential step for all stakeholders, Federal, 
State, or local, is to pursue and complete the required 
planning process allowing funds to flow wisely in a coordinated 
method.
    In addition to my individual role for the county, I am also 
the Chairman of the Florida Gulf Consortium, which was created 
by this Act. It is a truly unique organization combining both 
multiple local governments, as well as State government, in a 
true partnership. To date, I will tell you this body meets 
almost bimonthly to coordinate and exchange information and 
strategize about its planning process. The recent addition of 
the Governor of Florida's six appointees to this consortium has 
created a truly cohesive statewide approach.
    But perhaps the most essential task of the consortium is 
the establishment and the creation of the Florida State 
expenditure plan, with the goal to outline and identify 
practical and appropriate projects for both environmental and 
economic restoration. It remains our sincerest hope that the 
process developed within the State expenditure plan be applied 
to maximize opportunities within the other funding mechanisms 
across the Deepwater Horizon settlement sources, such as the 
Natural Resource Damage Assessment, NRDA, and the National Fish 
and Wildlife Foundation, NFWF. While both NFWF and NRDA have 
begun projects across the Gulf Coast, it concerns me that any 
monies awarded through these entities may not necessarily be 
based upon priorities consistent with the forming of the State 
expenditure plan and the multiyear implementation plans. While 
not yet an issue, I have real concern that any future 
expenditures would be better coordinated and efficiently 
overseen if these plans were already established. Toward that 
end, the consortium and local governments need funding up front 
now to ensure resources are available for this required funding 
and further that it flows directly to those specific bodies 
charged with drafting those plans.
    Additionally, at the state and local level, we need 
guidance on the process to develop and submit these plans. The 
sooner we have specific rules of the game, the sooner we can 
develop our plans consistent with all relevant state and 
Federal regulations beyond just the RESTORE Act itself. This 
includes specific direction on what documentation will be 
required for these plans such as compliance with NEPA and at 
what point we must secure any required permits and other 
required approvals.
    Finally, I would like to comment on the importance of 
moving forward expeditiously on developing regulations for both 
Components 2 and 3. In that regard, I understand that there has 
been some disagreement on the potential formula related to the 
spill impact component. I recently attended a National 
Association of Counties meeting in New Orleans, along with 
several other local officials from Gulf Coast counties and 
parishes. At that meeting, all present agreed that while each 
state and county/parish could argue they sustained more damage 
and deserved more money than the other, any additional monies 
provided to one entity would be to the detriment of an equally 
deserving recipient of the greater coalition.
    Knowing firsthand the amount of energy and effort that went 
into the original negotiations on the spill impact formula, 
coupled with the fact that each Gulf State participated in the 
process of developing this formula, I believe changes after the 
fact should not be entertained. The current statutory formula 
included within the text of the RESTORE Act should be 
maintained and the regulatory framework completed as soon as 
possible for both the development of plans and the eventual 
implementation of eligible projects. A great spirit of 
cooperation existed between these stakeholders during the 
negotiations surrounding these formulas, and I believe any 
change to these would sincerely hinder restoration across the 
Gulf of Mexico.
    In closing, I would just like to say thank you again for 
the work you did to provide the Gulf Coast with a real silver 
lining after a terrible environmental and economic tragedy. 
While nothing will totally remove the scars from that 
experience, it is the RESTORE Act that provides hope to state 
and local governments and the constituents they serve along the 
entire Gulf Coast. That same spirit has brought significant 
coordination and collaboration across the region and an 
excitement for what the future may bring. I ask that you please 
do all within your power to ensure that proper upfront funding 
is established for planning at all levels of the Act and to 
ensure a continued coordination between Federal, state, and 
local governments.
    Thank you again for all you have done for our region and 
our country.
    [The prepared statement of Mr. Robinson follows:]

    Prepared Statement of Hon. Grover C. Robinson IV, Commissioner, 
  District 4, Escambia County; and President, Florida Association of 
                                Counties
I. Introduction
    Good morning Mr. Chairman and Members of the Senate Commerce 
Subcommittee on Oceans, Atmosphere, Fisheries and Coast Guard. My name 
is Grover Robinson, and I sincerely appreciate the opportunity to 
address you this morning relative to the RESTORE Act and its 
implementation across five (5) states on the Gulf Coast. In addition to 
my being a commissioner from Escambia County Florida, I also serve as 
the President of the Florida Association of Counties and Chairman of 
the Florida Gulf Coast Consortium (comprised of 23 counties) created by 
the RESTORE Act. My comments this morning will address local government 
activities as they relate both to Component 1 (the Direct Component), 
as well as Component 3 (the Spill Impact Component). In addition, my 
comments focus on the immediate challenges facing local governments 
post-Oil Spill primarily in Florida but also to a larger extent those 
extended along the Gulf Coast.
    First, I greatly appreciate the wisdom of this body in insisting 
that local governments be involved as part of this process, especially 
within the State of Florida. The Direct Component that specifically 
provides funds directly to coastal counties impacted by the tragic 
events of the Deepwater Horizon Oil Spill remains essential for both 
environmental and economic restoration as envisioned by the RESTORE 
Act. However, many of the same parallels can be drawn to the Spill 
Impact Component and the charge entrusted to the Florida Gulf Coast 
Consortium.
II. Input Into the Process for Developing the Required Plans
    In both cases, groups have been established to oversee the Plan 
development process and provide citizen input into the Multi-Year 
Implementation and State Expenditure Plans. Within the Direct 
Component, each individual county is generally creating a citizen 
RESTORE Act committee to meet the public input requirement in the Act. 
For the purposes of the Spill Impact Component in Florida, the 23 
impacted local governments created a formal entity known as the Gulf 
Consortium to write the State Expenditure Plan and engage with the 
public. Currently, these groups are hearing from subject matter experts 
not only with regard to environmental restoration initiatives, but also 
on potential projects to bolster economic recovery across the region. 
Both goals, environmental and economic restoration, remain essential to 
developing and implementing the Plans required by the Act and 
forthcoming Treasury Rules--be they for the Multi-Year Implementation 
Plan in the Direct Component, or the State Expenditure Plans for the 
Spill Impact Component.
    That said, while all of us are excited about the many opportunities 
these projects will provide, the critical aspect at this moment exists 
with the required development of the numerous plans that must serve as 
the roadmaps for the pursuit of appropriate projects for restoration.
III. Upfront Funds for Plan Development
    Every stakeholder understands the more significant fines, and 
thereby funds, will come from the outcome of ongoing litigation with 
British Petroleum (BP). However, each of us has been granted an 
immediate opportunity with the Transocean settlement funds. This one 
billion dollar settlement requires a deposit of $800-million into the 
Gulf Coast Restoration Trust Fund and thus opens real opportunities for 
planning to begin quickly and coordination amongst the different 
planning bodies to occur. It is this planning that must be done to 
provide a positive and necessary direction for the expenditure of funds 
to ensure both environmental and economic restoration.
    Recently I had the opportunity to see Senator Nelson in Orlando, 
and I gave him the following Gulf Coast analogy. I told him that the 
Senate and the U.S. Congress have provided the region with a great 
gift. To use an appropriate metaphor, we have essentially been handed 
an oyster. However, at this particular time we have no tool to open the 
shell (shucking knife/planning dollars), meaning we are unable to 
really access the wonderful gift we have been presented-the 
implementation of eligible projects to actually restore the Gulf Coast. 
Therefore, the most essential next step is that all stakeholders: 
federal; state, and local, pursue and complete the required planning 
processes allowing funds to flow wisely and in a coordinated manner.
IV. Opportunity for Coordination Among the Planning and Funding Efforts
    In addition to my individual county role, I am also the Chairman of 
the Florida Gulf Consortium, which the U.S. Congress created through 
this Act. It is a truly unique organization combining both multiple 
local county governments as well state government in a true 
partnership. To date, I will tell you this body meets almost bi-monthly 
to coordinate, exchange information and strategize about its planning 
process. The recent addition of the Governor of Florida's six 
appointees to this Consortium has truly created a cohesive state-wide 
approach. Perhaps the most essential task of the Consortium is to 
establish and create the Florida State Expenditure Plan, with the goal 
to outline and identify practical and appropriate projects for both 
environmental and economic restoration. It remains our sincerest hope 
that the process developed within our State Expenditure Plan be applied 
to maximize opportunities with the other funding mechanisms across the 
greater Deepwater Horizon settlement sources, such as Natural Resource 
Damage Assessment (NRDA) and National Fish and Wildlife Foundation 
(NFWF). While both NRDA and NFWF have provided funding for projects 
across the Gulf Coast, it concerns me that any monies awarded through 
these entities may not necessarily be based upon priorities consistent 
with the forthcoming State Expenditure and Multi-Year Implementation 
Plans. While not yet an issue, I have real concerns that any future 
expenditures would be better coordinated and efficiently overseen if 
these plans were already established. Toward that end, the Consortium 
and local governments need the proper funding upfront to ensure 
resources are available for this required planning and further, that it 
flows directly to those specific bodies charged with drafting those 
specific plans.
    Additionally, at the state and local level, we need clear guidance 
on the process to develop and submit these plans. The sooner we have 
specific ``rules of the game'' the sooner we can develop our plans 
consistent with all other relevant state and Federal regulations beyond 
just the RESTORE Act itself. This includes specific direction on what 
documentation will be required in the plans, such as compliance with 
National Environmental Policy Act (NEPA) and at what point we must 
secure any required permits or other required approvals.
    Finally, I would like to comment on the importance of moving 
forward expeditiously on developing the regulations for Components 2 
(Comprehensive Plan) and 3 (Spill Impact). In that regard, I understand 
that there has been some discussion and potential disagreement on the 
formula related to the Spill Impact Component. I recently attended a 
National Association of Counties meeting in New Orleans along with 
other local officials from Gulf Coast counties and parishes. At that 
meeting, all of those present agreed that while each state and county/
parish could argue they sustained more damage and deserved more money 
than the other, any additional amounts provided to one entity would be 
to the detriment of an equally deserving recipient of the greater 
coalition.
    Knowing firsthand the amount of effort and energy that went into 
the original negotiations on the Spill Impact formula, coupled with the 
fact that each Gulf State participated in the process of developing 
this formula, I believe changes after-the-fact should not be 
entertained. The current statutory formula included within the text of 
the RESTORE Act should be maintained and the regulatory framework 
completed as soon as possible for both the development of plans and the 
eventual implementation of eligible projects. A great spirit of 
cooperation existed between the stakeholders during the negotiations 
surrounding these formulas, and I feel any attempt to alter the formula 
significantly hinders the restoration of the Gulf of Mexico either 
environmentally or economically.
V. Conclusion
    In closing, I would just like to say thank you again for the work 
you did to provide the Gulf Coast with a real silver lining after a 
terrible environmental and economic tragedy. While nothing will totally 
remove the scars of that experience, it is the RESTORE Act that 
provides hope to state and local governments and the constituents they 
serve along the entire Gulf Coast. That same spirit has brought 
significant coordination and collaboration across the region and an 
excitement for what the future may bring. I ask that you please do all 
within your power to ensure that proper upfront funding is established 
for planning at all levels of the Act and to ensure a continued 
coordination between federal, state and local governments.
    Thank you again for all you have done for our region and our 
country.

    Senator Nelson. Thank you, Commissioner Robinson.
    Mr. Kelsch, wrap us up here. I want you to also talk about 
the fact that $2.5 billion under the Act has already flowed 
because of a criminal fine, and that has flowed through Fish 
and Wildlife. And that is for Gulf restoration projects. So 
talk to us about that.

           STATEMENT OF THOMAS E. KELSCH, SENIOR VICE

          PRESIDENT, GULF ENVIRONMENTAL BENEFIT FUND,

             NATIONAL FISH AND WILDLIFE FOUNDATION

    Mr. Kelsch. Thank you, Senator and Ranking Member Rubio. It 
is an honor to be here with you today and to join a 
distinguished panel of exceptional public servants and fellow 
Gulf restoration partners.
    I want to begin by apologizing on behalf of our Executive 
Director, Jeff Trandahl, who is on travel and unable to be here 
to testify today.
    This year, the Foundation is celebrating its 30th 
anniversary as a Congressionally-chartered conservation 
nonprofit. As one of the Nation's largest conservation funders, 
we currently work with 15 Federal agencies, numerous state 
agencies, corporations, foundations, individuals, and our local 
grantees to implement on-the-ground conservation projects in 
all 50 states and internationally.
    Our experience in the Gulf is extensive. In fact, prior to 
the Deepwater Horizon disaster, the Foundation had invested 
over $128 million in conservation projects throughout the five 
Gulf States.
    As I am sure you are aware and as you just alluded to, in 
2013 the plea agreements resolving certain criminal claims 
against BP and Transocean were approved by the U.S. District 
Court. Those plea agreements established the payment schedule 
for restitution funds, $2.54 billion total, and an allocation 
formula by state for those funds. The plea agreements also 
directed the Foundation's use and management of the restitution 
funds, which we refer to as the Gulf Environmental Benefit 
Fund.
    Under the terms of the plea agreements, we are charged with 
funding projects whose purpose is to remedy harm to or reduce 
the risk of future harm to natural resources, habitats, and 
species in the states of Alabama, Florida, Mississippi, and 
Texas that were affected by the Deepwater Horizon oil spill. In 
Louisiana, we are directed to fund only barrier island 
restoration and river diversion projects that are consistent 
with the State's Coastal Master Plan and other related studies 
that Senator Landrieu and Senator Vitter mentioned earlier 
today.
    In identifying these projects and very importantly, the 
Foundation is required to consult with natural resource 
agencies from each of the five states and with the U.S. Fish 
and Wildlife Service and with NOAA. To date, the Gulf 
Environmental Benefit Fund has received $511 million in 
payments from the responsible parties, and we have awarded $260 
million, more than half of the available funds, to a variety of 
projects that address priority conservation needs in all of the 
five Gulf States. Already migratory birds, sea turtles, 
oysters, and other fish and wildlife are directly benefiting 
from these investments.
    Following further extensive consultation with our state and 
Federal resource agencies, we anticipate awarding an additional 
$130 million or more this summer and fall. As we do with other 
funding opportunities, we are continuing to build effective 
partnerships with the states, Federal agencies, and the private 
sector to identify and advance priority projects. Importantly, 
we are engaged with members of both the RESTORE Council and the 
Natural Resource Damage Trustees as appropriate to understand 
their emerging conservation priorities and policies in an 
effort to better understand how their efforts can complement 
and inform our own. We recognize that such coordination will 
ensure that investments from the Gulf Environmental Benefit 
Fund contribute to the overall restoration goals for the Gulf 
of Mexico as established under the RESTORE Act.
    We also continue to look for opportunities to leverage Gulf 
Environmental Benefit Funds with our other public and private 
funds to maximize outcomes for the Gulf.
    Again, on behalf of the National Fish and Wildlife 
Foundation, I want to thank you for the opportunity to join 
today's hearing and to provide this brief update on the Gulf 
Environmental Benefit Fund. We look forward to continuing to 
work with our state and Federal agency partners to advance 
significant conservation projects in each of the five Gulf 
States over the life of the fund and also look forward to 
keeping Congress apprised of our progress.
    Before I conclude, I just want to take a moment to thank 
both Trudy Fisher and Mimi Drew for their leadership and 
dedication in working with NFWF to build a strong partnership 
for conservation in both Mississippi and Florida. They and 
their counterparts in other states and within Fish and Wildlife 
Service and NOAA deserve our great thanks and gratitude, and we 
look forward to answering any questions.
    [The prepared statement of Mr. Kelsch follows:]

  Prepared Statement of Thomas E. Kelsch, Senior Vice President, Gulf 
   Environmental Benefit Fund, National Fish and Wildlife Foundation
    Thank you, Mr. Chairman, Ranking Member Rubio, and Members of the 
Committee. It is an honor to be here with you today, and to join this 
distinguished panel of exceptional public servants, fellow Gulf 
restoration partners, to discuss our collective efforts to restore and 
protect the natural resources of the Gulf of Mexico region.
    The National Fish and Wildlife Foundation (NFWF) was established by 
Congress in 1984 to foster public-private partnerships to conserve 
fish, wildlife, plants, and their habitats for present and future 
generations of Americans. To fulfill our mission, we do not engage in 
litigation, we do not advocate or oppose given policies or decisions, 
and we do not lobby.
    NFWF is governed by a 30-member Board of Directors that includes 
the Director of the U.S. Fish and Wildlife Service (FWS), the 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA), and 28 private citizens, including several from states 
bordering the Gulf of Mexico.
    Over 30 years, NFWF has developed a successful model of 
coordinating and leveraging public and private funds to address the 
most significant threats to fish and wildlife populations. As one of 
the Nation's largest conservation funders, NFWF currently works with 15 
Federal agencies, numerous state agencies, private partners, and our 
local grantees to implement on-the-ground and in-the-water conservation 
projects in all 50 states and internationally. NFWF's work helps to 
create and sustain abundant wildlife species and natural habitats that 
serve as both a source of enjoyment for all Americans and an important 
driver of our Nation's economic health.
NFWF's Initial Response in the Gulf
    Our experience in the Gulf region is extensive. In fact, in the 
years prior to the 2010 Deepwater Horizon oil spill, NFWF had already 
invested more than $128 million to support over 450 fish and wildlife 
habitat projects throughout the Gulf region. These projects were 
supported with Federal funds and private contributions from NFWF's 
corporate partners. In response to the oil spill, NFWF's experience in 
the Gulf region allowed us to take a leadership role in coordinating 
immediate efforts to bolster wildlife populations outside the spill 
zone and enhance their recovery once the spill was over.
    NFWF worked with government agencies, non-governmental 
organizations, private foundations, individuals, and corporations to 
protect and restore Gulf Coast fish, wildlife, and habitats affected by 
the oil spill. For example, NFWF engaged Walmart to secure a commitment 
of $2.25 million for NFWF-funded conservation projects on Federal and 
state wildlife management lands on the Gulf coast. We also worked with 
FedEx and agency partners during the summer of 2010 to facilitate the 
transfer of 25,000 endangered sea turtle eggs from the Gulf coast to 
the Atlantic coast--one of the largest wildlife relocations in history. 
NFWF also launched the Recovered Oil Fund for Wildlife in 2010, funded 
with $22.9 million in proceeds from BP's share of net revenue from the 
sale of oil recovered from the Deepwater Horizon site, and leveraged 
those monies by working closely with some of our other corporate 
partners. The Fund, and matching money, funded 53 grants between 2010 
and 2013.
BP and Transocean Criminal Settlements
    On November 15, 2012, the Justice Department announced that BP had 
agreed to plead guilty to various criminal charges arising from the 
2010 Deepwater Horizon oil spill. Transocean followed suit on January 
3, 2013. On January 29, 2013, the United States District Court for the 
Eastern District of Louisiana approved BP's plea agreement. Two weeks 
later, on February 14, 2013, Transocean's plea agreement was approved. 
The plea agreements designated NFWF as the recipient of $2.394 billion 
from BP and $150 million from Transocean to be used for projects to 
``remedy harm and eliminate or reduce the risk of future harm to Gulf 
Coast natural resources.'' These Deepwater Horizon settlement payments 
were similar to various other settlement payments that have flowed to 
NFWF over the years to fund projects benefitting our Nation's natural 
resources. We believe that our long history of successfully managing 
these types of funds contributed to the decision by the Department of 
Justice to commit the BP and Transocean settlement funds to our care.
    The requirements for BP and Transocean to pay these funds, as well 
as the usage restrictions applicable to the funds, were entered in 
Federal Court orders that are enforceable as special conditions of 
probation. NFWF must look strictly to the plea agreements and these 
Court-ordered probationary conditions in our administration of the 
funds.
    According to the plea agreements, the BP funds will be paid to NFWF 
over a five-year period and the Transocean funds will be paid to NFWF 
over a two-year period beginning in 2013. The plea agreements require:

  <bullet> 50 percent of the funding to be allocated for barrier island 
        restoration and river diversion projects in Louisiana;

  <bullet> remaining funds to be allocated for natural resource benefit 
        projects in the states of Alabama, Florida, Mississippi (28 
        percent each), and Texas (16 percent); and,

  <bullet> consultation with the Gulf state resource agencies, as well 
        as with NOAA and the FWS, to identify projects for potential 
        funding.
NFWF Gulf Environmental Benefit Fund
    NFWF has a long track record of successfully managing funds arising 
from legal and regulatory proceedings that are designated to benefit 
natural resources. In the case of the BP and Transocean criminal funds, 
NFWF carries out this function through its Gulf Environmental Benefit 
Fund (GEBF). As directed by the two plea agreements, NFWF will 
administer a total of $2.544 billion to fund projects benefitting the 
natural resources of the Gulf Coast that were impacted by the spill.
Purposes
    The underlying plea agreements specify a narrow purpose for the 
Louisiana-designated funds as compared to the purpose designated for 
funds in the other four states. In Louisiana, the funds may be used 
only ``to create or restore barrier islands off the coast of Louisiana 
and/or to implement river diversion projects on the Mississippi and/or 
Atchafalaya Rivers for the purpose of creating, preserving, and 
restoring coastal habitat.'' Selection of projects must take into 
consideration Louisiana's Coastal Master Plan, as well as the Louisiana 
Coastal Area Mississippi River Hydrodynamic and Delta Management Study.
    In the other four states, the funds must be used ``to conduct or 
fund projects to remedy harm to [natural] resources where there has 
been injury to, or destruction of, loss of, or loss of use of those 
[natural] resources resulting from the Macondo oil spill.''
    It is here that we have faced our greatest challenge. NFWF has no 
discretion to stray from the strict language of the plea agreements 
regarding the purpose or distribution of the GEBF--monies in the Fund 
may be used only for projects that directly benefit the specific types 
of natural resources (habitat and species) that were impacted by 
Deepwater Horizon. Thus, for example, NFWF's GEBF is not available to 
pay for otherwise important projects that aim to remedy economic or 
social impacts from the Macondo spill. It has taken considerable time 
and effort to educate stakeholders across the Gulf region regarding the 
strict parameters under which we operate and to conform local 
expectations to the terms of the plea agreements.
Consultation and Project Selection
    As required by the plea agreements, NFWF has continually consulted 
with natural resource management agencies in each of the five Gulf 
States and with FWS and NOAA on the identification and prioritization 
of appropriate projects. The specific state resource agencies with whom 
NFWF is consulting are: (1) the Alabama Department of Conservation and 
Natural Resources, (2) Florida Fish & Wildlife Conservation Commission, 
(3) Florida Department of Environmental Protection, (4) Louisiana 
Coastal Protection and Restoration Authority, (5) Mississippi 
Department of Environmental Quality, (6) Texas Parks and Wildlife 
Department, (7) Texas Commission on Environmental Quality, and (8) 
Texas General Land Office. Many of the agencies with whom NFWF is 
consulting serve on both the Deepwater Horizon Natural Resource Damage 
Assessment Trustee Council and the Gulf Coast Ecosystem Restoration 
Council, and their input has been the primary means through which 
project selection under NFWF's GEBF has been coordinated with similar 
activities under both the Natural Resource Damage Assessment (NRDA) and 
``Resources and Ecosystems Sustainability, Tourist Opportunities, and 
Revived Economies of the Gulf Coast States [RESTORE] Act of 2012'' 
programs.
    NFWF has worked to develop general consensus among the state and 
Federal agencies in identifying projects that meet the conditions of 
the plea agreements and that maximize benefits for Gulf coast natural 
resources. When our state and Federal agency partners suggest projects 
that provide regional benefits, such as those crossing state boundaries 
or even potentially Gulf-wide, NFWF has worked to facilitate interstate 
and inter-agency agreement on project design and funding strategies. 
However, even in the absence of consensus, NFWF retains the 
responsibility and authority under the plea agreements to make final 
project funding decisions.
    In addition to the primary criteria for project selection set forth 
in the plea agreements, NFWF identifies and prioritizes projects that 
also meet the following criteria:

  <bullet> advance priorities in natural resource management plans, 
        such as those called for under the RESTORE Act;

  <bullet> are cost-effective and maximize environmental benefits;

  <bullet> are science-based; and,

  <bullet> produce measureable and meaningful outcomes for Gulf natural 
        resources.

    As it does in its other conservation grant-making, NFWF's decision-
making relies on strong, science-based evidence and the technical input 
from state and Federal resource agencies. In the aftermath of the oil 
spill, public agencies, universities, and other organizations have 
conducted, and continue to conduct, extensive research to improve the 
understanding of the Gulf of Mexico ecosystem and efforts needed to 
restore critical natural resources, enhance its resiliency, and improve 
management. As this information becomes available, it will be used to 
further inform our thinking.
Payment Schedule
    From 2013 to 2018, the GEBF will receive a total of $1.272 billion 
for projects in Louisiana, $356 million each for projects in Alabama, 
Florida, and Mississippi, and $203 million for projects in Texas. In 
accordance with the terms of the two plea agreements, payments into the 
GEBF will occur over a five-year period in the case of BP and over a 
two-year period in the case of Transocean. More than half of the 
funding will arrive in years four and five. As payments are received, 
NFWF will segregate funds into accounts by state in accordance with the 
formula established by the plea agreements and will award the funds to 
projects after the required consultations with state and Federal 
resource agencies and approval by the NFWF Board of Directors. The 
schedule of payments and mandated division of funds follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Grant Awards to Date
    On November 14, 2013, one year after BP entered its guilty plea, 
NFWF announced the first set of awards derived from the GEBF. Two 
additional grants were announced on April 3 and April 8, 2014. To date, 
NFWF has awarded more than $260 million, or more than 50 percent of the 
$511 million received to date, for priority conservation projects in 
the five Gulf States. A break out of awards follows:

------------------------------------------------------------------------
                                                              Amount  ($
  State      Project Description        Grant Recipient           in
                                                              millions)
------------------------------------------------------------------------
Alabama    Restoration &            Alabama Department of          $3.75
            Enhancement of Oyster    Conservation & Natural
            Reefs                    Resources--Marine
                                    Resources Division
------------------------------------------------------------------------
           D'Olive Watershed        Mobile Bay National             6.78
            Restoration              Estuary Program/Marine
                                     Environmental Sciences
                                    Consortium
------------------------------------------------------------------------
           Fowl River Watershed     Mobile Bay National             2.05
            Restoration              Estuary Program/Marine
                                     Environmental Sciences
                                    Consortium
------------------------------------------------------------------------
Florida    Management &             Florida Fish & Wildlife         1.73
            Restoration of           Conservation
            Escribano Point          Commission
            Coastal Habitat--Phase
            I
------------------------------------------------------------------------
           Government Street        Florida Department of           2.11
            Regional Stormwater      Environmental
            Pond at Corrine Jones    Protection
            Park
------------------------------------------------------------------------
           Apalachicola Bay Oyster  Florida Fish & Wildlife         4.19
            Restoration              Conservation
                                     Commission
------------------------------------------------------------------------
           Comprehensive Panhandle  National Audubon                3.21
            Coastal Bird             Society
            Conservation
------------------------------------------------------------------------
           Eliminating Light        Sea Turtle Conservancy          1.50
            Pollution on Sea
            Turtle Nesting Beaches
------------------------------------------------------------------------
           Enhanced Assessment for  Florida Fish & Wildlife         3.00
            Recovery of Gulf of      Conservation
            Mexico Fisheries--       Commission
            Phase I
------------------------------------------------------------------------
Louisiana  Caminada Beach & Dune    Louisiana Coastal               3.00
            Increment II:            Protection &
            Engineering & Design    Restoration Authority
------------------------------------------------------------------------
           East Timbalier Island:   Louisiana Coastal               6.00
            Engineering & Design     Protection &
                                    Restoration Authority
------------------------------------------------------------------------
           Mid-Barataria Sediment   Louisiana Coastal              40.40
            Diversion: Engineering   Protection &
            & Design                Restoration Authority
------------------------------------------------------------------------
           Lower Mississippi River  Louisiana Coastal              13.60
            Sediment                 Protection &
           Diversions: Planning     Restoration Authority
------------------------------------------------------------------------
           Increase Atchafalaya     Louisiana Coastal               4.90
            Flow to Terrebonne:      Protection &
            Planning                Restoration Authority
------------------------------------------------------------------------
           Caminada Beach & Dune    Louisiana Coastal             144.55
            Increment II:            Protection &
            Construction            Restoration Authority
------------------------------------------------------------------------
Mississip  Coastal Bird             Mississippi Department          1.60
 pi         Stewardship Program      of
                                    Environmental Quality
------------------------------------------------------------------------
           Mississippi Coastal      Mississippi Department          3.30
            Preserves Program        of
                                    Environmental Quality
------------------------------------------------------------------------
           Coastal Stream &         Mississippi Department          2.63
            Habitat Initiative       of
                                    Environmental Quality
------------------------------------------------------------------------
           Mississippi Coastal      Mississippi Department          3.60
            Restoration Plan         of
                                    Environmental Quality
------------------------------------------------------------------------
Texas      Sea Rim State Park       Texas Parks & Wildlife          0.19
            Coastal Dune             Department
           Restoration
------------------------------------------------------------------------
           Galveston Island State   Texas Parks & Wildlife          2.49
            Park Marsh Restoration   Department
            & Protection
------------------------------------------------------------------------
           West Galveston Bay       Scenic Galveston                4.08
            Conservation
           Corridor Habitat
            Restoration
------------------------------------------------------------------------
           Oyster Reef Restoration  Texas Parks & Wildlife          0.84
            in East Bay              Department
------------------------------------------------------------------------
           Gulf Coast Migratory     Ducks Unlimited                 1.25
            Waterfowl
           Habitat Enhancement
------------------------------------------------------------------------
                                    total                        $260.75
------------------------------------------------------------------------

    Following further extensive consultation with state and Federal 
resource agencies over the coming months, NFWF anticipates awarding, by 
year's end, an additional $130 million or more of settlement funds 
received thus far.
    Our ability to begin awarding funds less than a year after the plea 
agreements were approved was made possible in large part by the intense 
efforts of our federal, state, local, and private partners to help us 
craft a process that generated quality proposals in a timely manner 
focusing on the highest priority conservation goals. This ``can do'' 
spirit, and the collaboration and cooperation that resulted, has been 
one of the true success stories surrounding NFWF's GEBF.
Conclusion
    As we move forward with the implementation of the GEBF, we will 
continue to work with our state and Federal partners to identify high 
priority projects that meet the requirements of the plea agreements and 
provide long-term restoration benefits to the Gulf of Mexico region. As 
stated, we are utilizing existing planning and prioritization efforts 
such as those required by the RESTORE Act to deliver the funds without 
creating new and duplicative processes. Accountability and fidelity to 
the Court orders are essential to the process and we are committed to 
awarding the funds entrusted to us in a timely and responsible manner.
    NFWF will report annually to Congress, as well as to the Court and 
Department of Justice, on its activities with regard to the GEBF. This 
will include a list and descriptions of projects and the funding 
awarded for them. We look forward to continued input from key 
stakeholders, both public and private, to ensure the success of the 
GEBF and its associated restoration projects.

    Senator Nelson. Thank you.
    Senator Rubio?
    Senator Rubio. Thank you, Mr. Chairman.
    Just briefly so that no one is wondering where all the 
money went, in my statement I said the Gulf Environmental 
Benefit Fund was $12.5 billion. It is actually $2.5 billion.
    [Laughter.]
    Senator Rubio. There is not $10 billion sitting around.
    Mr. Andrews, what is your role on the Council?
    Mr. Andrews. Senator, I serve as the Deputy Secretary of 
the Department. Secretary Pritzker is the Chair selected by the 
states of the Council, and so as part of the operating 
structure, one of the roles of the Deputy Secretary of the 
Department is essentially to serve as the Chief Operating 
Officer for the Department. Because this is such a high 
priority for the Department and making sure this is done well, 
this is one of the projects, probably right now what I spend 
most of my time on, frankly, focusing on and working with our 
team to make sure that this is being done well and 
appropriately.
    Senator Rubio. Will Secretary Pritzker or you on her 
behalf--will you make clear here today that you commit to 
implementing the oil spill impact formula as is written in the 
law?
    Mr. Andrews. Senator, the statute is absolutely our guide 
for implementing this, and we are going to follow the law.
    Senator Rubio. Ms. Drew, thank you for being here. I 
appreciate it very much.
    Let me ask you this. How important is--let me just get to 
this in the interest of time. How important is water quality to 
habitat restoration, and do you feel water quality is being 
appropriately emphasized in all of the current funding streams?
    Ms. Drew. Thank you very much for that question, Senator 
Rubio.
    Unfortunately, under NRDA, we have not been able to address 
water quality, and we know that in the State of Florida 
particularly we had aquatic ecosystems that were injured. We 
hope to be able to see both the NFWF funding and some of the 
RESTORE funding go to water quality. It is my opinion that you 
cannot have a good habitat, particularly marine or aquatic 
habitat, unless you have good water quality. Florida has a long 
history of water quality protection, and we would like to see 
these funds be used for that continuing protection.
    Senator Rubio. Mr. Robinson, thank you for being here. I 
understand you have interrupted a vacation to be here with us 
today. So I appreciate your commitment to this cause.
    I wanted to get your thoughts on the Council's--what they 
released on Friday, their proposal for submission and 
evaluation.
    Mr. Robinson. Thank you, Senator, and thank you for your 
invitation to be here.
    We have seen a little bit of it and started being in the 
process. Anything that begins to advance funds for planning is 
most important at this particular time, whether we are at the 
county level or at the state consortium level. I think it is 
going to be important for Floridians that we get plans moving. 
So I am very happy about that. I just want to make sure that in 
all 23 of our counties, we are able to get the planning that we 
need to get done in order to advance the projects.
    Senator Rubio. Well, what has been the number one 
impediment that the county consortium has had moving forward 
with the restoration work?
    Mr. Robinson. It is absolutely planning dollars. That has 
been our biggest issue. And also in a sense somewhat that we 
are a little bit different. The direct component does not go 
directly to the State. So it is kind of hard to figure how to 
advance some of those dollars. But once we get going, as I said 
before, that group has been a very good mesh of state and local 
government working together. I am very excited about what I 
see. And we will be having our next consortium meeting next 
week in Escambia County at Pensacola Beach, and we are moving 
forward on that. We just need planning dollars so we can begin 
to get a consultant moving on getting that plan done.
    Senator Rubio. Mr. Ehrenwerth, you state that the Council 
anticipates an interim final rule in the next 2 months that 
would provide access to the states and Florida counties of up 
to 5 percent of funding for planning. What has been the delay 
in issuing that interim final rule?
    Mr. Ehrenwerth. Well, Senator, we have been very committed 
to doing everything in our power to ensure that all the states 
and Federal agencies who participate in the Council have the 
support and the resources that they need to carry out this 
work. We are very optimistic that we will get----
    Senator Rubio. Why has it taken so long?
    Mr. Ehrenwerth. We were exploring a number of options to 
try to get money quickly to the consortium of counties in 
Florida, as well as the other states. And I think with the 
interim final rule option, we finally settled on the best 
approach to get money----
    Senator Rubio. So when can we expect that?
    Mr. Ehrenwerth.--this summer. We are moving forward with it 
as we speak.
    Senator Rubio. The summer meaning August?
    Mr. Ehrenwerth. We are going to try to do it as quickly as 
we possibly can.
    Senator Rubio. Mr. Kelsch, given the amount of money and 
the different funding streams that have resulted from both 
criminal and civil penalties from the Deepwater Horizon 
incident, how important is process and planning on selected 
projects so that we can avoid duplication and inefficiencies?
    Mr. Kelsch. I think the plea agreements require that the 
Foundation consult closely with the state resource agencies, 
Fish and Wildlife Service, and NOAA. Importantly, the 
individuals that we are consulting with, Mimi Drew, Trudy 
Fisher, are the same individuals who sit and represent the 
agencies on the RESTORE Council and NRD Trustee Council. That 
coordination, that consultation has been extremely critical 
relative to avoiding duplication. While we are constrained 
within the plea agreement in terms of what we can support for 
planning, we are pleased, as noted in Trudy's comments, our 
ability to support some planning in the State of Mississippi 
and Alabama to help address some of those critical needs as 
well.
    Senator Nelson. As you can hear by the comments of the 
Senators, those of us who wrote and passed this law--we are 
impatient. We want to get on with it. And it has been 2 years. 
And although the big chunk of money, which will be as a result 
of the civil fines imposed by Judge Barbier, which is going to 
be anywhere from about $5 billion to $20 billion, 80 percent of 
which is going to flow under the structure of the RESTORE Act, 
the 20 percent, of course, going into the Oil Spill Liability 
Trust Fund--you do not have that money, but you got other pots 
of money. You have got $2.5 billion that has gone to Mr. 
Kelsch's operation. You will have $800 million that has come 
down from the Transocean money. So the message from us to you 
is get on with it. And it is an opportunity to have some money 
that is there to start the planning for when the big wad of 
money comes when the judge decides in New Orleans and/or after 
that goes through an appellate process, which could be some 
time on down the road.
    Now, that issue in front of Judge Barbier is how many 
barrels of oil were spilled and what was the culpability. And 
once he decides the latter, then he multiplies that times the 
number of barrels of oil that were spilled. And then that money 
is going to flow.
    And the structure is pretty easy. It is fairly clear in the 
statute. There are those three pots of money that you have been 
talking about today. You call them ``buckets.'' Then there are 
two more that are basically 2.5 percent each, one of which goes 
to take care of the fish, fish stock assessments, another which 
goes to the Centers of Excellence.
    Anybody want to tell me about how the planning for the 
Centers of Excellence has gone along in any of the states? Ms. 
Fisher?
    Ms. Fisher. Yes, Mr. Chairman, I will be happy to address. 
We are anxiously awaiting the finalization of the Treasury 
regs, as everyone is, to have those final rules in place. And 
then the coordination and the testimony that was filed by 
Deputy Secretary Andrews--the coordination of the Centers of 
Excellence and the research work will be done--we are working 
in Mississippi to leverage, Senator Rubio, for sure to avoid 
duplication, but we focus on leveraging the dollars, how do we 
maximize the three funding streams and the research, the 
monitoring, the backup information that is needed. So that is 
the type of discussions and planning that we are having with 
proponents for our Centers of Excellence. How to leverage and 
how to maximize all of those funding streams, including the 2.5 
percent for the Centers of Excellence.
    Senator Nelson. So what you just said is we are waiting for 
the Treasury regs. And so, Treasury, please understand the 
impatience of the Senators on this panel who have been 
responsible in passing this Act.
    Mr. Kelsch, do you want to give us any lessons learned 
since you actually have your fingers on $2.5 billion? Any 
lessons learned you want to share with all of us?
    Mr. Kelsch. I think the work to date of the RESTORE Council 
in implementing the RESTORE Act has actually helped to 
establish the degree of kind of consensus and a path forward. 
It has been critical to our success. I think the fact that we 
are dealing again with the same individuals who are helping to 
shape the initial master plan, shape the implementation of 
priority projects, and then can work with them less encumbered, 
if you will, by the conditions of the plea agreement and having 
funds certain in the accounts that we have has allowed us to be 
able to make very effective investments while these other 
processes are being complete.
    Senator Nelson. Mr. Ehrenwerth, you have stated that the 
Council is slated to become operationally independent. This 
panel wants to make sure that ``independent'' does not mean a 
lack of accountability.
    And, Mr. Andrews, how will the Council help ensure a 
thorough and expedited environmental and regulatory compliance?
    Mr. Andrews. Well, the Council, Senator, will continue to 
work with all of the agencies and with all of the states. And 
we recognize the impatience of the Committee but also, frankly, 
of all the members of the Council, both on the Federal side and 
the State side. So we have already been working among the 
Federal agencies to make sure that we do the prep work upfront 
to try to streamline the regulatory process on the back end so 
that we are not slowed down by regulatory impediments.
    Senator Nelson. All right. We are counting on you. 
Otherwise, we are going to have another hearing, and we are 
going to be beating on your door because you all have got to 
implement this thing. And it has been 2 years and it is time to 
get moving.
    Commissioner Robinson, tell us what do you think--in 
closing here, what can the Federal Government do to help the 
local governments of all the Gulf Coast States in this 
implementation process other than what has been stated clearly 
here that you need planning money right now?
    Mr. Robinson. Senator, thank you very much for your vision 
very much in helping create this RESTORE Act. Again, it is 
going to be vital to that point.
    Twenty-three counties and almost half the Gulf Coast--of 
the Gulf of Mexico is in the State of Florida. And I think in 
order to protect Floridians, much of what has already been said 
here today, many of the things there regards to planning and 
other parts. But I want to echo what Ms. Drew also said. In 
Florida, water quality leads to habitat, and we cannot have 
habitat restoration without water quality improvements. So 
those projects that are moving water quality--we need those to 
be moving forward.
    And, again, thank you for everything and your leadership in 
making this happen for the RESTORE Act for all of us along the 
Gulf Coast but especially us Floridians.
    Senator Nelson. Well, I want to thank all of you very much.
    Let us look at what we have learned here. We have learned 
that the Department of Commerce has got to figure out a way to 
get the funding moving for the planning as we wait for the big 
wad of money to be decided by the court in New Orleans.
    We need the administration to finalize the Treasury rules.
    We need the administration to work with this Committee as 
we oversee the implementation of the law.
    And we need to make sure that the administration is 
prioritizing large-scale ecosystem protection across science 
and research programs, and that would include the so-called 
fish fund,'' which is the science program on assessing the fish 
stocks which was one of the little small set-aside funds that 
was set up.
    So I think we have learned some things here today, and it 
is now up to you all to go out and implement it.
    Thank you for your public service. Thank you for your 
devotion to duty.
    The meeting is adjourned.
    [Whereupon, at 12 p.m., the hearing was adjourned.]
                            A P P E N D I X

           Gulf of Mexico University Research Collaborative
                                                    August 11, 2014

Hon. Mark Begich,
Chairman,
Senate Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Hon. Marco Rubio,
Ranking Member,
Senate Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Hon. Bill Nelson,
Senate Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Senators Begich, Rubio, and Nelson:

    Thank you for holding the recent hearing, Revisiting the RESTORE 
Act: Progress and Challenges in Gulf Restoration Post-Deepwater 
Horizon. We greatly appreciate your unrelenting attention to the Gulf 
in the wake of this tragedy and hope that science will be employed 
widely and wisely to help guide restoration efforts and ensure that we 
are better prepared for future injuries to our coastal communities and 
resources.
    As you well know, in response to the 2010 BP Deepwater Horizon Oil 
spill, various programs were authorized to address response, 
restoration and science in the Gulf, with funding and oversight for 
these programs originating from a variety of places, both Federal and 
private. The Gulf of Mexico Research Initiative (GoMRI), Natural 
Resource Damage Assessment, criminal plea agreements, Clean Water Act, 
class action lawsuits, and the Resources and Ecosystems Sustainability, 
Tourist Opportunities, and Revived Economies of the Gulf Coast States 
Act (RESTORE Act) represent the broad authorities, funding sources, and 
diverse goals of the Nation responding to this tragedy. Given that each 
program addresses a specific need, each also brings its own governing 
body, timeline, and oversight structure. While the RESTORE Act included 
some provisions for coordination among efforts, there is no requirement 
or mandate for coordination among the various broader suite of 
restoration science programs. With no overarching framework to identify 
gaps or duplicative efforts that may exist in time or space or 
opportunities to maintain continuity and availability of data and 
information moving forward, we are left with no mechanism to ensure 
that, at the end of these programs' tenure, we have a whole that is 
greater than the sum of their individual parts.
    Coordination among programs for creating efficiencies in programs 
and reducing duplicative work is critical to the success of all the 
programs. For instance, there will be monitoring efforts in many of 
these programs, either to help actively manage a restoration project or 
to improve basic knowledge of and forecasting for the coastal 
environment. A coordinated ocean observing system that provides real-
time data from buoys, gliders, radar and other remote devices would be 
a valuable asset for all programs and would advance the field of 
knowledge to better prepare the Nation for the next oil spill 
regardless of its location. Another example of needed coordination 
exists with regards to research vessels. A dedicated regional research 
vessel for the Gulf would certainly be fully utilized given the many 
field experiments and monitoring activities that will be ongoing for 
the next decade.
    On the data side of monitoring, there are also multiple entities 
with plans to compile all the historic data and establish a permanent 
repository. Cyberinfrastructure of this sort is very complex, costly, 
and needs to be thoughtfully designed and implemented to ensure quality 
control of data going in and quality products coming out. Coordination 
of efforts in data quality control and management is essential for 
ensuring the Nation's researchers, industry and resource managers have 
open access to data and information products that will aid sustainable 
management of our resources.
    Furthermore, a lateral strategy and coordination can maximize the 
programs' varied timelines through staging of research, as well as 
moving research findings into usable products. While some programs have 
strengths in research and science, others focus on restoration, 
communication, forecasting, mitigation, and myriad other topics. 
Programs building on each other's strengths (as well as on data and 
information from historical programs) and bolstering others to 
complementarily fill mission gaps will create a cohesive, comprehensive 
national approach to Gulf oil spill response and recovery.
    Finally, we share your concerns with the sluggish way that the 
Treasury Department has responded to the RESTORE Act regulations. As 
you know, these regulations are overdue, and no money can flow until 
they are finalized. It appears that Treasury and OIG activities are not 
synchronized, further exacerbating a confusing situation along the 
Gulf. In one case, the Federal entities (led by NOAA) are well on the 
way to planning for RESTORE science activities, but the lack of rules 
from Treasury seem to preclude the academic Centers of Excellence from 
being at the planning table, even though it is prescribed in the 
statute.
    We share your commitment to a successful restoration of Gulf 
ecosystems and hope that with your leadership we can achieve vigorous 
coordination between the various Gulf spill science programs. It is 
critical that this occurs as soon as possible to ensure that we take 
the best advantage of the ongoing and future opportunities stemming 
from the Gulf oil spill tragedy. We understand the complexity and 
magnitude of coordinating across the breadth of Gulf restoration 
resources and activities, and we offer the experiences of Consortium 
for Ocean Leadership and the Gulf of Mexico University Research 
Collaborative to assist with developing a strategy. We are happy to 
discuss these issues with you in more detail at your earliest 
convenience.
            Regards,
                                        Robert B. Gagosian,
                                                 President and CEO,
                                       Consortium for Ocean Leadership.

                                      William Monty Graham,
                                                 Board Chairperson,
                      Gulf of Mexico University Research Collaborative.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                         Hon. Bruce H. Andrews
    Question. How will Department of Commerce ensure, as required by 
the RESTORE Act, that oil spill programs do not replace but are 
coordinated with existing NOAA programs mandated to support ecosystem 
restoration and conservation?
    Answer. The Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA), in partnership with the Gulf Coast 
Ecosystem Restoration Council, actively coordinates with the other 
entities involved in Gulf Coast ecosystem restoration to ensure all 
programs are free of duplication. NOAA is actively engaging and 
coordinating with governmental and nongovernmental research programs 
that operated in the region prior to the Deepwater Horizon oil spill 
and RESTORE Act implementation to prevent any overlap. The coordination 
efforts of both NOAA and the Council focus on, but are not limited to, 
the following activities and entities: RESTORE Section 1604--NOAA 
Science & Monitoring; RESTORE Section 1605--State Centers of 
Excellence; Natural Resources Damage Assessment (NRDA) trustees; 
National Fish and Wildlife Foundation (NFWF); National Academy of 
Science (NAS); and Gulf of Mexico Research Initiative (GoMRI). We 
continue to be strongly committed to coordinating with our partners in 
our collective efforts to restore the Gulf Coast region. In addition, 
the Council has built specific steps into the project selection process 
to coordinate on project selection to help leverage resources and avoid 
duplication.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                         Hon. Bruce H. Andrews
    Question 1. A topic we frequently hear about in Florida is not only 
the importance of stock assessments, for example, of the red snapper 
fishery but of a clearer understanding of how the Deepwater Horizon 
incident may have impacted this fishery. How will the work of the Gulf 
Coast Ecosystem Restoration Science, Observation, Monitoring, and 
Technology Program contribute to stock assessments?
    Answer. We recognize the need to advance our current understanding 
of Gulf fisheries. The Gulf Coast Ecosystem Restoration Science, 
Observation, Monitoring and Technology Program (Program) will 
contribute to a holistic understanding of the Gulf of Mexico ecosystem 
including its fish populations, fishing industries, habitat, and 
wildlife through ecosystem research, observation, monitoring, and 
technology development. Because fish stocks and fisheries are such an 
integral component of the ecosystem, much of the research supported by 
the Program will either directly or indirectly increase our 
understanding of fisheries in the Gulf and provide data that will be 
critical to our assessment work on many Gulf species.

    Question 2. When do you anticipate hiring a director for the 
science program? Why hasn't a director been hired yet?
    Answer. The Gulf Coast Ecosystem Restoration Science, Observation, 
Monitoring and Technology Program, or NOAA RESTORE Science Program, has 
been led for over a year by an Acting Director based in the region. We 
are in the process of hiring a Director and a Washington, D.C.-based 
Associate Director. We expect the Associate Director to be on the job 
by October, 2014, and the Director to be on the job by the end of the 
year.

    Question 3. Is it possible that the delay in implementing sections 
of the RESTORE Act, particularly science projects like the assessment 
of fisheries, could have implications for the natural resource damage 
assessment process as well?
    Answer. The science for the injury assessment under the Natural 
Resource Damage Assessment (NRDA) is well underway and is not impacted 
by the fact that science projects have not yet been implemented under 
the RESTORE Act. The science projects that will be funded under 
components of the RESTORE Act will be important in helping to inform 
long term restoration planning and monitoring.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                          Justin R. Ehrenwerth
    Question. The recently released project selection process 
encourages projects that benefit ``the human community where 
implementation occurs.'' That doesn't come from the statute, and in 
fact, could take away from comprehensive restoration because several 
projects provide benefits only far from where they actually are 
implemented. For example, in Florida, by purchasing buffer lands around 
freshwater springs, the benefit is to communities that rely on 
downstream waters. So the project is implemented upstream, but the 
benefits are elsewhere. How will this consideration be addressed?
    Answer. Mr. Ehrenwerth failed to submit a response to the question.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Justin R. Ehrenwerth
    Question 1. What programs non-federal programs (State agencies, 
University Research Consortia, designated Center of Excellence: Center 
for Gulf Studies) are being coordinated with?
    Answer. Since 2013, representatives of the Gulf Coast Ecosystem 
Restoration Council (Council) and Council staff have been informally 
meeting and coordinating with many of our partners including the NOAA 
RESTORE Act Science Program, the National Academy of Sciences Gulf of 
Mexico Program, the National Fish and Wildlife Foundation Gulf Program, 
the Gulf of Mexico Research Initiative, the Gulf of Mexico University 
Research Consortium, the Gulf of Mexico Alliance, the North American 
Wetlands Conservation Fund, the National Resource Damage Assessment 
program, candidate or prospective Centers of Excellence under the Act's 
Section 1605 program, and various state agencies. Some of this 
coordination has taken place under the banner of the ``Gulf Coast Ad 
Hoc Coordination Forum'' which was created to provide regular 
communication and coordination on Gulf of Mexico restoration related 
science amongst the entities funded as a result of the Deepwater 
Horizon oil spill to support science and restoration. Coordination of 
this forum has been carried out through monthly teleconferences and/or 
webinars as well as periodic face-to-face meetings.

    Question 2. How are they being coordinated with? How do we ensure 
the states have the intended leadership role in developing the science 
needs when NOAA is restricted from engagement with the Centers of 
Excellence?
    Answer. The Gulf Coast Ecosystem Restoration Council staff has been 
informally engaged through the Gulf Coast Ad Hoc Coordination Forum 
with a variety of entities including: the NOAA RESTORE Act Science 
Program, the National Academy of Sciences Gulf of Mexico Program, the 
National Fish and Wildlife Foundation Gulf Program, the Gulf of Mexico 
Research Initiative, the Gulf of Mexico University Research Consortium, 
the Gulf of Mexico Alliance, the North American Wetlands Conservation 
Fund, the National Resource Damage Assessment program, candidate or 
prospective Centers of Excellence under the Act's Section 1605 program, 
and various state agencies.
    I defer to the U.S. Department of Commerce and NOAA to discuss its 
activities in this regard.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Justin R. Ehrenwerth
    Question 1. Will Council commit to implementing the oil spill 
impact formula as it was written in the law?
    Answer. Yes. The Gulf Coast Ecosystem Restoration Council (Council) 
is committed to a fair and transparent process when developing 
regulations that adhere to the RESTORE Act. In August 2014, the Council 
published an Interim Final Rule in the Federal Register that will allow 
Gulf Coast states to receive funding for development of State 
Expenditure Plans. The Interim Final Rule provides access to up to 5 
percent of the funds available to each State under the Oil Spill Impact 
Component for planning--a percentage equal to the statutory minimum 
each Gulf Coast state is guaranteed under the RESTORE Act. The Council 
anticipates releasing a second proposed rule in the coming months that 
adheres to the RESTORE Act, details the oil spill restoration impact 
allocation formula, and sets levels of funding provided to each State. 
The Council will undertake a public notice and comment process for this 
second rule. Following review of and response to public comments, the 
Council will finalize the regulation and begin awarding funds to the 
Gulf Coast States according to the RESTORE Act, the regulation, and 
approved State plans.

    Question 2. What has precluded the Council from entering a 
Memorandum of Understanding regarding administrative funding with the 
states similar to the MOU between the Department of Commerce and the 
Department of Treasury?
    Answer. In August 2013, the Council executed a Memorandum of 
Understanding (MOU) with the U.S. Department of the Treasury (Treasury) 
to make funds from the Gulf Coast Restoration Trust Fund (Trust Fund) 
available for administrative expenses. This MOU was an interim measure 
to allow the Council to access administrative funds in support of 
initial stand-up activities while Treasury finalized its regulations 
concerning the investment and use of amounts deposited in the Trust 
Fund. The MOU between the Council and Treasury expired on October 14, 
2014, upon finalization of the Treasury regulations. The Act provides 
the Council with a 3 percent cap on administrative expenses and the 
Council has approved a budget consistent with this cap that allocates 
funds to cover administrative expenses of the Council, such as 
accounting systems, pay roll, etc. In recognition of the need to 
provide funding for planning and the development of State Expenditure 
Plans under the Oil Spill Impact Allocation Component, the Council 
issued an Interim Final Rule (IFR) in August 2014 to provide funding to 
state Council members for planning and the development of State 
Expenditure Plans under the Oil Spill Restoration Impact Allocation 
Component of the Trust Fund.

    Question 3. How will the Council weight each of the five goals in 
the Comprehensive Plan?
    Answer. The five Goals in the Initial Comprehensive Plan will not 
be weighted. The Council will use the Goals and Objectives set forth in 
the Initial Comprehensive Plan to guide its ecosystem restoration 
funding decisions. The Goals provide the Council's desired long-term 
outcomes for Gulf Coast restoration; the Objectives outline the broad 
types of activities that are expected to achieve the Goals. The Council 
intends to refine the Objectives over time to be more specific and 
measureable as more information is known about the ultimate amount and 
availability of funding.

    Question 4. Please provide a detailed timeline of the milestones 
and final publication of the funded priorities list.
    Answer. The Council is committed to working with deliberate speed 
to implement the Act and develop a Funded Priorities List (FPL).

  <bullet> Project solicitation window closes on November 17, 2014.

  <bullet> Projects reviewed for eligibility under RESTORE Act; budget 
        reasonableness; ``Priority and Commitment to the Initial 
        Comprehensive Plan'' review; ``Best Available Science'' review 
        conducted by external experts; ``Environmental Compliance 
        Readiness'' review; and concurrent development of ``context 
        reports'' for the aforementioned reviews completed March 2015.

  <bullet> Council review of context reports and development of Draft 
        FPL; Draft FPL published in the Federal Register June 2015, for 
        public review and comment.

  <bullet> Public comment period on Draft FPL closes July 2015.

  <bullet> Council review and incorporation of public comments; 
        finalization and publication of the FPL completed by September 
        2015.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                              Mimi A. Drew
    Question. You mention that, in lessons learned, there could be some 
changes to laws or rules that would permit a more rapid approach to 
restoration. Can you elaborate on this?
    Answer.

    Issue: On April 20, 2011, the Deepwater Horizon Natural Resource 
Damage Assessment Trustees and BP signed the Framework for Early 
Restoration Addressing Injuries Resulting from the Deepwater Horizon 
Oil Spill, which set aside $1 billion dollars for early restoration. 
However, three and half years later, the Trustees and BP have only 
reached agreement on how to spend $700 million of the $1 billion. This 
is due, in part, to the fact that the Trustees and BP must negotiate 
the amount of credit that BP will receive for each early restoration 
project that it funds. To date, when determining the amount offsets for 
each project, BP has refused to use a dollar-for-dollar (value-to-
value) scaling approach, which is allowed under 15 C.F.R. Sec. 990.53. 
Instead, BP has insisted that the Trustees calculate the offsets using 
Habitat Equivalency Analysis, Resource Equivalency Analysis, or Benefit 
Cost Ratio. If BP was required to use a dollar-for-dollar scaling 
approach then the amount of time spent on negotiating the offsets for 
the early restoration projects would be significantly reduced.

    Recommendation: Amend the Oil Pollution Act of 1990 (OPA), to 
require the responsible parties to participate in early restoration for 
spills where final restoration will not be implemented for a numbers of 
years due to the size and complexity of the spill. As part of this 
amendment, require early restoration projects to be credited using the 
dollar-to-dollar (value-to-value) scaling approach, which would allow 
for a more rapid restoration.

    Issue: The Deepwater Horizon disaster has shown that an incident of 
that type and size requires a huge and timely response. However, once 
the initial cleanup is accomplished, technically, final restoration 
could wait until the case is either litigated to conclusion or settled. 
If the Trustees and BP hadn't been able to reach agreement on an early 
restoration settlement of $1 billion, the affected Trustees would still 
be waiting to begin the restoration of damaged resources.

    Recommendation: Amend the Oil Protection Act of 1990 (OPA), to 
require responsible parties provide early restoration funding for 
spills or incidents over a certain size or geographic distribution.

    Issue: One of Florida's most immediately recognized injuries was 
the damage to recreational use of the resource, or loss of human use. 
The existing law is very focused on detailed assessment for ecological 
loss, but not particularly helpful in determining how to address loss 
of human use.

    Recommendation: Given the large role this injury played in the DWH 
incident, the law should be reviewed against what we have learned for 
possible changes to make this type of loss more easily addressed and 
offset.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                            Thomas E. Kelsch
    Question 1. How important is water quality to habitat restoration?
    Answer. Improved water quality can be an important element in 
restoring the ecological functioning of priority bays and estuaries, 
especially in areas where noted degradation of water quality is the 
significant limiting factor in those systems. With limited funding 
available, projects that provide the most significant measurable 
improvement to the functioning of bays and estuaries affected by the 
Deepwater Horizon oil spill, and the habitats and species they support, 
must be prioritized to ensure the most significant outcomes and highest 
possible returns on investment from the Gulf Environmental Benefit Fund 
are achieved.

    Question 2. Does the Foundation have any sort of rebuttal process 
for projects that apply for funding but are not accepted?
    Answer. In accordance with the terms of the plea agreements, NFWF 
is required to consult with state and Federal resource agencies in 
identifying projects for funding under the Gulf Environmental Benefit 
Fund. NFWF works closely with our resource agency partners to provide 
substantive comments and guidance on potential improvements to projects 
that may make them more competitive.
    To facilitate consideration for funding through the Gulf 
Environmental Benefit Fund and other funding sources arising from the 
Deepwater Horizon oil spill, each of the Gulf States has established a 
web-based portal to receive project ideas and comment from the public. 
The states are responsible for managing these submission processes and 
notifying applicants of the status of their submissions.

                                  <all>

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.






      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
